<html>
<title> - IRAN ON NOTICE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                             IRAN ON NOTICE

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2017

                               __________

                            Serial No. 115-5

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
24-242 PDF                     WASHINGTON : 2017                       
_________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0562756a45667076716d6069752b666a682b">[email&#160;protected]</a>  
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Katherine Bauer, Blumenstein-Katz Family Fellow, The 
  Washington Institute for Near East Policy......................     4
Mr. David Albright, founder and president, Institute for Science 
  and International Security.....................................    21
Mr. Scott Modell, managing director, The Rapidan Group...........    30
Andrew Exum, Ph.D., contributing editor, The Atlantic............    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Katherine Bauer: Prepared statement..........................     6
Mr. David Albright: Prepared statement...........................    23
Mr. Scott Modell: Prepared statement.............................    32
Andrew Exum, Ph.D.: Prepared statement...........................    40

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Material submitted for the record...    83

 
                             IRAN ON NOTICE

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. This 
morning we consider options available to the new administration 
as it contends with an emboldened Iran.
    As one witness will tell the committee, we should start 
with this premise: Iran ``gets no special pass'' on its 
dangerous and provocative acts. Unfortunately--despite its 
promises to the committee--that is not how the previous 
administration handled Tehran. Terrorist and missile activities 
that should have been designated were not designated. In a 
country where beatings and torture and executions are the norm, 
just one individual has been sanctioned for human rights abuses 
after negotiations began, just one. After that deal was inked, 
the former Secretary of State traveled the world 
enthusiastically touting that Iran was open for business.
    Indeed, the administration went out of its way not to 
offend Tehran. In December, when this committee pressed the 
extension of the Iran Sanctions Act, the President took the 
very unusual step of letting this legislation become law 
without his signature.
    So it is not surprising that Tehran believes it is in a 
``post-sanctions environment.'' But as long as Iran is firing 
missiles, fueling terror, and shouting ``Death to America,'' 
nothing can be normal.
    Sanctions can be imposed even while adhering to and 
strictly enforcing the nuclear agreement--as flawed as it is. 
Remember, even under the previous administration's reading, the 
administration has the ability to press back on Iran's support 
for terrorism, for human rights abuses, and for missile 
development. ``None of these sanctions were relieved under the 
[agreement],'' in the words of the former administration.
    So Iran's continuing intercontinental ballistic missile 
program--whose only purpose is to carry a nuclear warhead--must 
be front and center. This month's designations are a good 
start. But more can be done to find and target the banks and 
companies that are supplying this dangerous program aimed at 
us. It also means more extraditions, more prosecutions, and 
indictments of sanctions violators. This proactive approach 
also means stepping up our defenses and those of our regional 
partners.
    Second, the administration shouldn't be shy about tackling 
Iran's terror arm and that is the Islamic Revolutionary Guard 
Corps. This is the group fueling the Assad regime in Syria and 
this is the group responsible for the death of hundreds of 
American troops. Since the Guard has been labeled Iran's ``most 
powerful economic actor'' by the U.S. Treasury Department, 
there are plenty of options here available. Indeed, there are 
hundreds of Iranian Revolutionary Guard Corps affiliates that 
are yet to be sanctioned--what one observer calls a 
``Revolutionary Guard's Gap.'' These are the front companies 
that are funding the missiles that have on the side of them, 
``Israel must be wiped off the face of the earth.''
    These terror outfits need to be sanctioned, and the new 
administration should look at ways in which companies closely 
linked to the Revolutionary Guard Corps--but not fully owned by 
them--could be sanctioned. The threat of secondary sanctions 
against those around the world dealing with these IRGC units 
which even tried to carry out a terrorist attack here in 
Washington, DC, to kill the Saudi Ambassador here in 
Washington. Looking at this must be a priority, and it has to 
be real, and it wasn't under the previous administration.
    Around the region, the administration can attack Iran's 
proxy Hezbollah thanks to a new law advanced by this committee. 
We can focus on increased interdiction of Iranian arms 
shipments to the revolutionary Houthis in Yemen, on clearer 
rules of engagement, and better defense cooperation with our 
partners on the front lines of the Iranian threat.
    The nuclear agreement does not leave us defenseless against 
Tehran's threatening behavior. Careful coordination with allies 
is a must, and all along we should be clear that the choice is 
with Iran to end its threatening, destabilizing behavior.
    I am going to introduce our panel this morning, and then I 
am going to go to Mr. Eliot Engel of New York who is the 
ranking member of this committee.
    On our panel we have Ms. Katherine Bauer. She is the 
Blumenstein-Katz Family Fellow at The Washington Institute for 
Near East Policy and previously she served in a series of 
positions at the Treasury Department.
    We have Mr. David Albright. He is the founder and president 
of the Institute for Science and International Security. Mr. 
Albright is a trained physicist and former weapons inspector.
    We have Mr. Scott Modell, managing director at the Rapidan 
Group and previously served for 13 years in the Central 
Intelligence Agency.
    And we have Dr. Andrew Exum, contributing editor at the 
Atlantic and previously Dr. Exum served as Deputy Assistant 
Secretary of Defense for Middle East Policy.
    Without objection, the witnesses' full prepared statements 
are going to be made part of the record and you will be asked 
to summarize if you could. The members here are going to have 5 
calendar days to submit any statements or additional questions, 
any extraneous material they might want to put into the record.
    So we would start with Ms. Bauer, but before we do that 
allow me to have the ranking member of the committee Eliot 
Engel open with his opening comments.
    Mr. Engel. Well, thank you. Thank you very much, Mr. 
Chairman, and let me also thank our witnesses and welcome all 
of you to the Foreign Affairs Committee.
    At this point we all know Iran's record of provocative 
actions, from ballistic missile tests to transferring weapons 
to terrorist organizations and other bad actors that seek to 
destabilize the region. Technically speaking, all this bad 
behavior doesn't violate the nuclear deal. However, those 
actions are inconsistent with U.N. Security Council Resolution 
2231 which governs the implementation of the agreement. 
Responsible governments around the world have an obligation to 
respond.
    The Trump administration imposed new sanctions against 
several entities involved in Iran's ballistic missile program 
and support for terrorism. And just to make sure we are all 
being fair, I will mention that these designations matched 
exactly the Obama administration's response over the last 
several years since negotiations began.
    The difference between the Trump administration's response 
and the Obama administration's response was a two-word phrase, 
``on notice.'' Then National Security Advisor Mike Flynn said 
as a result of Iran's provocative actions the United States is 
putting Iran ``on notice.'' So what does it mean exactly to put 
Iran ``on notice''? How will the administration respond if Iran 
tests the President again? Does the administration have a plan?
    In a follow-up briefing to the ``on notice'' warning a 
reporter asked what that meant. The response was, ``We are 
considering what options there are and how we want to 
communicate and enforce our concerns.'' That is not really a 
plan. I hope that the administration will make it clear what 
their plan is on Iran because surely Iran will continue its 
provocative behavior.
    We cannot afford a half-baked or reckless foreign policy. 
Rash decisions concerning America's role in the world could 
have serious consequences for American personnel and interests. 
American and Iranian forces are operating in close proximity in 
Iraq. Who knows what could happen if the administration doesn't 
have a cohesive policy? Additionally, if this turns out to be 
an empty threat, then this administration will not have done 
its job. We have to really confront the Iranian threat and let 
them know that we are serious about it, that we mean business.
    I don't trust the Iranian Government. I didn't vote for the 
Iranian deal. But the Iranian deal is now in place and I think 
we have to ensure that Iran lives up to every bit of its 
responsibility under that deal. Let me just say this. I look 
forward to our hearing from our witnesses about what a 
responsible course of action would be. Iran and the terrible 
regime in Tehran is not going away and I think that if the 
United States doesn't stand up to it, it will only get worse. I 
believe with all my heart that everything must be done to 
prevent Iran from having a nuclear weapon. However, looking the 
other way and just tough rhetoric doesn't really cut the 
mustard. We have got to make sure that Iran understands that 
there are severe consequences if they continue their ways. And 
I look forward to hearing from our witnesses as to what they 
think our response should be.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you very much, Mr. Engel. We now go 
to our witnesses.
    Ms. Bauer.

   STATEMENT OF MS. KATHERINE BAUER, BLUMENSTEIN-KATZ FAMILY 
     FELLOW, THE WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Ms. Bauer. Good morning. Chairman Royce, Ranking Member 
Engel and members of the committee. Thank you for the 
opportunity to testify before you today to discuss the future 
of U.S. policy toward Iran. My testimony will focus on the role 
of sanctions and restraining Iran's malign influence in the 
region and disrupting its global terrorism, money laundering, 
and procurement networks. It will draw on analysis done in 
conjunction with my colleagues Patrick Clawson and Matthew 
Levitt at the Washington Institute for Near East Policy as part 
of a new study that we released earlier this week. I will 
summarize key points here.
    There is no doubt today that sanctions played a pivotal 
role in bringing Iran to the table to negotiate constraints on 
its nuclear program. Over roughly a decade, the U.S. and its 
allies imposed powerful multilateral sanctions on Iran that 
isolated Tehran from the international financial system and 
crippled its economy.
    Following implementation of the Iran nuclear deal in 
January 2016 and suspension of nuclear related sanctions, the 
pace of sanctions against Iran under remaining authorities 
slowed. Despite assurances the United States would vigorously 
press against Iranian activities outside of the Joint 
Comprehensive Plan of Action, the Obama administration did so 
only sporadically. Thus, in many ways Washington ceded the 
narrative to Tehran which successfully convinced many in the 
private and public sectors that in the wake of implementation 
of the nuclear agreement they operate in a post sanctions 
environment.
    But the deal was never intended to give Iran a free pass on 
its nonnuclear malevolent actions. Iran made no commitment to 
cease nonnuclear malign activity and has not in fact halted it. 
In the words of Abbas Araqchi, Iran's deputy foreign minister 
and one of Iran's chief negotiators of the deal, ``During the 
nuclear negotiations we clearly said that questions of 
security, defense, ballistic missiles and our regional policies 
were not negotiable and not linked to the nuclear talks.''
    Sanctions remain a viable and powerful tool to confront 
Iran over its nonnuclear illicit conduct. In our study we 
suggest a multi-pronged approach that includes taking back the 
narrative, emphasizing the sanctions that remain, and 
vigorously enforcing them. Such enhanced sanctions will work 
best, however, if they are proportional and accompanied by 
diplomatic, military, and intelligence measures in a 
coordinated campaign against Iran's destabilizing activities.
    Sanctions are a tool in such a strategy, but not a strategy 
unto themselves. There is a place for unilateral sanctions such 
as the action taken by the Trump administration late last month 
against Iranian procurement and terrorist support networks. 
These actions were likely prepared under the Obama 
administration, and as Congressman Engel noted they demonstrate 
a bipartisan consensus on targeting Iran's malign activities. 
They are also effective because banks around the world look to 
the U.S. and to the OFAC list and they can be very disruptive. 
As well, they lay the groundwork for other countries to follow 
suit.
    However, sanctions are most effective when adopted by an 
international coalition. Foreign partners have long been 
skeptical of U.S. unilateral sanctions when they are viewed as 
being capricious. Thus, focusing on Iranian conduct that 
violates international norms will be most likely to draw 
multilateral support and compliance. In this manner, sanctions 
can also demonstrate to Iran the benefits of accommodating 
itself to the international order.
    Consider the benefits that Iran has gleaned from the 
nuclear deal. Oil sales and other exports are up and inflation 
has stabilized. Iranian officials claim that hundreds of small 
banks have already reestablished correspondent relationships 
with Iran. But Iran will not be able to attract the foreign 
investment it desperately needs while global banks continue to 
view it as a financial pariah, and there is no reason to 
believe that Iran has ceased the illicit financial conduct or 
sanctions evasion conduct that underpinned the U.S. FinCEN 311 
finding of Iran as a jurisdiction of Primary Money Laundering 
Concern or earned Iran its place on the Financial Action Task 
Force blacklist.
    Previously, private sector engagement on the risks of doing 
business with Iran proved incredibly effective as a tool to 
restrict Iran's operating environment. Given this history, the 
U.S. Government should resume such sanctions diplomacy and 
engagements with private and public sector actors around the 
world to highlight evidence that Iran continues to pose a 
threat to the global financial system. Rather than reassuring 
banks that doing business with Iran will help enshrine the 
nuclear deal, U.S. Government officials at every level should 
emphasize that Iran bears the onus of demonstrating its 
adherence to the same requirements imposed on every other 
country by reining in illicit financial activity and conforming 
with international norms.
    Thank you again for the opportunity to testify.
    [The prepared statement of Ms. Bauer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Chairman Royce. Feel free, Mr. Albright, please.

    STATEMENT OF MR. DAVID ALBRIGHT, FOUNDER AND PRESIDENT, 
        INSTITUTE FOR SCIENCE AND INTERNATIONAL SECURITY

    Mr. Albright. Thank you, Mr. Chairman, Ranking Member, and 
other members of this committee for holding this hearing today 
and inviting me to testify. I applaud your committee's efforts 
to understand and chart a way forward on Iran policy.
    I would like to limit my comments to the Iran nuclear deal 
which I would like to see maintained, but the deal must be 
better enforced and implemented, its nuclear conditions more 
strictly interpreted, its verification improved, and its short 
and long term deficiencies fixed. I have listed in my testimony 
several steps to fix the weaknesses in the deal and will 
discuss some of them here.
    But first, I would like to talk a little bit about some of 
the specific problems in the deal's implementation. As the 
chairman mentioned, Iran continues to test nuclear-capable 
ballistic missiles. We can argue whether this is inconsistent 
with or in violation of U.N. Security Council Resolution 2231, 
however, the fact of the matter is that a nuclear warhead 
without a reliable delivery system is not a militarily useful 
weapon. So progress on ballistic missiles today and tomorrow 
represents progress toward Iran building a nuclear weapons 
arsenal in the future.
    The workings of the deal have been far too secret. 
Moreover, the IAEA continues to under report the actual 
situation on the ground. Many of the Joint Commission decisions 
are questionable and I have given several examples in my 
testimony. Also, so far Iran has resisted IAEA inspections of 
military sites and the risk is growing that Iran is creating 
no-go zones for inspectors inside Iran. Moreover, during the 
JCPOA negotiations and extending for some time afterwards, the 
Obama administration interfered in U.S. law enforcement 
efforts. It blocked or did not process the extradition requests 
and lure memos aimed at Iranians and their agents alleged of 
violating U.S. trade control and sanction laws.
    I would like to briefly discuss some specific steps to 
ensure stricter enforcement in strengthening the JCPOA in the 
short term, and I give many in my testimony. There is a need to 
achieve greater transparency in IAEA access. The U.S. and its 
allies should press IAEA to include greater details in its 
quarterly reports to the Board of Governors. Parallel 
agreements to the JCPOA should be publicly released. More 
importantly, it is critical to ensure that Iran provides 
guaranteed, timely IAEA access to Iranian military facilities.
    It is also a priority to prevent Iran from developing an 
indigenous enriched uranium fuel capability. If they do so this 
would lay the basis for an expanded industrial scale centrifuge 
program that would be very difficult to stop. Toward that goal, 
further exemptions to the 300 kilogram enriched uranium cap 
should be deferred indefinitely. There are also numerous 
loopholes to the JCPOA that need to be fixed. I will mention 
two here.
    The Oman loophole for heavy water should be plugged. To 
that end all shipments of Iranian heavy water from Oman or 
other overseas storage locations should be subject to approval 
by the Procurement Working Group. It is also important to 
ensure that Iran is abiding by restrictions on centrifuge R&D 
under the JCPOA. There are examples where they are pushing the 
envelope and the pushback needs to happen.
    It is also critical that Iran create and implement a 
strategic trade control system that meets international 
standards. As part of creating a strategic trade control regime 
in Iran, the United States should also interpret the JCPOA as 
stating that Iran will commit not to conduct illicit commodity 
trafficking for government controlled or owned military, 
missile, nuclear, or other industries and programs.
    As we await that there needs to be more effective 
enforcement of trading bans and sanctions. The administration 
should commit to more aggressively investigate, indict, and 
extradite those involved in outfitting Iran's nuclear missile 
or conventional weapons programs in defiance of U.S. laws and 
sanctions. The administration and its allies should step up 
efforts with allies to detect, interdict, or otherwise thwart 
Iran's illicit procurement efforts that violate national and 
international laws.
    At the same time, the United States and its allies should 
take steps to better detect and block Iranian cooperation with 
North Korea on ballistic missiles, cruise missiles, and 
conventional arms. They should also devote more intelligence 
resources determining if North Korea and Iran are cooperating 
on nuclear programs or transferring nuclear or nuclear related 
technology, equipment, or materials.
    Beyond the short term problems, the Iran deal has 
fundamental long term deficiencies that need to be addressed. 
Which problems to focus on and how to remedy them should be 
part of an Iran policy review by the Trump administration and 
Congress. Two priorities are extending the nuclear limitations 
in the deal and limiting Iran's ballistic missiles. One 
suggestion covering the former is to maintain a 12-month 
breakout requirement forever.
    Since I have run out of time let me end there. Thank you.
    [The prepared statement of Mr. Albright follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Chairman Royce. Mr. Modell.

 STATEMENT OF MR. SCOTT MODELL, MANAGING DIRECTOR, THE RAPIDAN 
                             GROUP

    Mr. Modell. Chairman Royce, Ranking Member Engel, members 
of the committee, thank you very much for the opportunity to 
come back and discuss what I would call the next generation of 
Iran pushback. I have testified here before and I think I am in 
the consensus to say that the last 8 years has been overly 
passive.
    And I have pushed forward--thinking ideas that there are 
ways, the tools we have and ways in which we can push back 
against what we often call the Iranian Action Network that have 
been overlooked and ignored as a result of an overly 
accommodating policy over the last 8 years. A lot of the 
recommendations I have in here are on the basis of things that 
I have already seen that we have that just need to be dusted 
off and sharpened, tools we have we have used in the past, ways 
in which we can improve on what already exists.
    But going back to the overarching theme of putting Iran 
``on notice,'' I think that former National Security Adviser 
Flynn did the right thing. I think there needs to be follow-up 
in that regard, follow-up on what the new rules of engagement 
are, follow-up in terms of making very clear to the Iranians 
that escalation, we have a very clear intent of reestablishing 
escalation dominance, of changing the nature of the dynamics 
between the U.S. and Iranians and the Gulf in other places and 
Yemen as well.
    But I also don't think that we have done nearly enough to 
point out the fact that while the original hostage crisis was 
in 1979, there is another hostage crisis. The Iranian regime 
continues to take Iranian-Americans and Canadian-Americans and 
other hyphenated Iranians hostage. It has become the systematic 
policy for the IRGC and for those businesses, particularly 
foreign businesses that are looking to get back into Iran, I 
think that needs to be part of, I guess, an overhaul of our 
media offensive and making clear about the dangers and risks 
not only to reputation, but literal risks of doing business in 
Iran.
    So I think Iran needs to be put on notice on various other 
dimensions. The other thing I would say is know your customer 
and do due diligence. My understanding from foreign businesses, 
large multinationals that are going into Iran, is that those 
requirements are actually rather easy to satisfy. I think this 
committee might consider ways of enhancing those, making those 
stricter, raising the bar for companies that are looking to get 
back in.
    The IRGC has done a very good job of cloaking itself, you 
know, two or three degrees removed from the core so that 
businesses, you know, can avoid that type of risk. But I think 
that they are ensconced in ways that ordinary businesses don't 
know and they are not being held liable to actually verify.
    Corruption, I think, is the one thing that gets at the 
heart of all the Iranians. To the extent that you are going to 
move Iranians, channel that anger and get them to do more 
inside and outside of Iran to stand up and protest, I really 
think that we need to do a much better job of systematically 
pointing out how deep corruption is. And I think that there are 
certain ways of doing that not only by overhauling what I said, 
the Voice of America and Radio Free Europe, and actually 
returning to the day when those were tools that were part of 
U.S.-Iran policy, but also on U.S. Government Web sites I think 
that there needs to be putting businesses on notice as well.
    I also think partners, proxies, and allies of the Iranian 
Government as well need to be put on notice and there are a lot 
of ways in which we can do that, and Chairman Royce mentioned 
some of those in some of the war zones in which we are all 
familiar. I look forward to expanding on some of these ideas, 
most of which I have mentioned in my testimony. Thank you.
    [The prepared statement of Mr. Modell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                              ----------                              


   STATEMENT OF ANDREW EXUM, PH.D., CONTRIBUTING EDITOR, THE 
                            ATLANTIC

    Mr. Exum. Mr. Chairman and Mr. Ranking Member, thank you so 
much for the opportunity to speak to the committee today. I 
have been asked to present testimony on Iran and I will do so 
in my capacity as the former Deputy Assistant Secretary of 
Defense for Middle East Policy during the Obama administration. 
I left the Department of Defense last month and my testimony 
today was cleared by the Department to ensure what I tell you 
remains at the appropriate level of classification and is as 
boring as possible for the rest of you listening in, but I will 
do my best to talk about things within the constraints I have 
been given.
    The United States has three vital interests in the Middle 
East: The security of the State of Israel, countering terrorism 
and the proliferation of weapons of mass destruction, and 
freedom of navigation and commerce in and around the Arabian 
Peninsula which all of you know is the home to vast hydrocarbon 
reserves. Iran can and does pose a threat to all of those 
interests and it does so in three ways: Its nuclear program, 
its buildup of conventional arms, and what we call its 
asymmetric activities that support the proxies such as 
Hezbollah or some of the Shia militias in Iraq.
    During the Obama administration we countered Iran through 
what we called our four Ps: Our posture, our plans, our 
partners, and our preparedness. With respect to posture, we 
have about 35,000 troops in and around the Persian Gulf alone. 
We have major airbases in Kuwait, Qatar, and the UAE. We have a 
major naval base in Bahrain. And these bases and the troops 
operating out of them allow us to ensure freedom of navigation 
in and around the Arabian Peninsula, combat terror groups--for 
many of these forces are in the skies above Iraq and Syria 
right now--and deter conventional Iranian aggression against 
our Gulf partners.
    We maintain a robust suite of plans to respond to regional 
contingencies. In my capacity at the Pentagon I reviewed these 
plans. They are real, they are resourced, and our forces are 
ready to execute them. Over the past three decades, meanwhile, 
we have invested in our regional partnerships, specifically 
building partnership capacity in our Gulf partners.
    We have a long way to go, but one of the areas where we 
have made the most progress, ballistic missile defense, helps 
us counter Iran's build-up of conventional weapons. We also 
engaged in unprecedented levels of defense and intelligence 
cooperation with Israel while making available some of our most 
advanced U.S.-made weapons to Gulf partners.
    Finally, we have our preparedness, and we chose this word 
because we needed the fourth P for people like me to remember. 
But what this really stands for, the many dozens of bilateral, 
unilateral, multilateral exercises we conduct on an annual 
basis to help us prepare for regional contingencies.
    So how are we doing? I will be blunt in my assessment and 
then offer some words of advice for this new administration as 
well as some words of caution for this committee. Specifically, 
I will argue that this administration's strategic flirtation 
with Russia is incompatible with what I assess to be its desire 
to pressure and counter Iran.
    First, the Department of Defense did not play a role in 
negotiating the nuclear deal with Iran, but the deal very much 
helped the U.S. military. Despite all the sturm and drang here 
in Washington and elsewhere in the summer of 2015, most 
strategic planners I have spoken with both here and in the 
region see the deal as offering real, positive opportunities 
both for the United States and for Iran.
    As you know, the Pentagon was always in charge of providing 
the enforcement mechanism for U.S. policy. If Iran cheats we 
will know about it, and the Pentagon is prepared to act 
accordingly. From our perspective then the nuclear deal was a 
pretty good deal because it constrained Iran while placing no 
such constraints on us.
    Iran also has some opportunities of course, and it appears 
to be largely squandering them. Some optimists in the Obama 
administration had hoped the nuclear negotiations would be a 
way to bring Iran in from the cold, so to speak, and encourage 
Iran to play a more helpful role regionally. The view of these 
optimists was not universally shared within the administration.
    Many of us argued within the administration and to our 
allies that the reason we needed to sign a deal with Iran was 
not because Iran is a benign actor but because they are a 
malign actor and thus needed to be prevented from acquiring a 
nuclear weapon. Iran's actions since signing the nuclear deal 
have vindicated the pessimists. Iran continues a robust build-
up of conventional weapons, including what we military folks 
call anti-access, area denial weapons like anti-ship cruise 
missiles and air defense systems, and while I don't think our 
own military commanders are losing sleep over these weapons 
just yet, I know our regional partners are.
    And here is my first word of caution. These weapons systems 
for the most part are not indigenous to the Islamic Republic of 
Iran. These are Russian weapons, sold by Russia to Iran with 
the aim of constraining U.S. freedom of maneuver in 
strategically important waterways and airways. Any serious 
effort to counter the build-up of these Iranian capabilities 
has to take Russia into account.
    Iran is also continuing what I would call its asymmetric 
activities. Its support to Shia and allied militia in Lebanon, 
Iraq, Syria, and Yemen continues. The presence of anti-ship 
cruise missiles in Yemen is especially concerning since it 
threatens a key commercial waterway, the Bab al-Mandeb.
    And let me be blunt again regarding the administration's 
overtures to Russia. In Syria it will be exceptionally 
difficult and likely impossible to reach any accommodation with 
Russia and the regime in Damascus that does not end up 
strengthening Iran and its proxies, including Hezbollah. So 
before the administration goes down that path they should 
recognize that in the short term at least they are going to 
embolden some of the very people they have pledged to counter 
in the region. And they will embolden Iran and these groups to 
the detriment of Israel's security.
    In Iraq, meanwhile, the Islamic State is on a clear path to 
defeat. But the long term threat to Iraq's sovereignty is both 
Kurdish separatism and the Shia militia, many of them supported 
by Iran, that exist only loosely affiliated with the Iraqi 
state. In addition, Iraq's long term stability will be 
dependent on the United States being able to keep a small 
contingent of trainers and special operators in the country, 
which is why the President's dismissive comments about the 
Iraqi Government, his comments about how we should have taken 
Iraq's oil, and his ban on Iraqis coming to the United States 
have been so strategically misguided.
    This all plays into a narrative of an Iran that very much 
views Iraq as a zero-sum game with the United States. It has 
spent millions of dollars to convince Iraqis that we have the 
types of malign activities toward Iraq that the President seems 
to in fact have but which few other share. If the United States 
wants to push back on that it needs to do so in the President's 
words and with robust diplomacy.
    I would also caution this administration from trying to 
push back against Iran and its proxies in Iraq right now. We 
have a Sunni terrorist enemy to defeat in Iraq and our 5,000 
soldiers in Iraq need to focus on them not on war with Iran's 
proxies. I fought in Iraq, and as any of you who fought there 
remember, Iran can make our life pretty miserable. So we don't 
need that fight right now and we should sequence how we push 
back on them.
    Finally, a few words on Yemen. We have talked about Islamic 
fundamentalism, but I am somewhat of a freedom of navigation 
fundamentalist. The United States should be prepared to 
robustly counter any threats to key waterways, and I am not 
going to lose any sleep if a couple of Houthis die because they 
made an error of firing an anti-ship cruise missile into the 
Bab al-Mandeb.
    I should note though that the vast, vast majority of 
commercial traffic--1,400 vessels, 80 million tons on a monthly 
basis--that flows through the Bab al-Mandeb is not American. It 
comes from the European Union, India, China, Korea; these are 
the countries that have the most at stake in any actions which 
threatens shipping, and before the administration escalates a 
war in Yemen it should start with some multilateral diplomacy 
telling Iran, in essence, to knock it off, lest their own 
commercial interests be at stake.
    In conclusion, in Secretary Mattis we have a Secretary of 
Defense who keenly understands the threat posed by Iran. And in 
Secretary Tillerson and Gary Cohn we have, respectively, a 
Secretary of State and a director of the Economic Council who 
understand the centrality of market access to hydrocarbon 
resources in the Gulf to the global economy.
    So there is some cause for optimism that this 
administration will eventually put together a coherent strategy 
to counter Iran's malign activities in a way that serves U.S. 
interests. But the contradictions in the administration's 
strategic initiatives thus far, not to mention the alarming and 
unprecedented dysfunction within the national security decision 
making process, leave plenty of room for worry as well.
    Mr. Chairman, thank you for allowing me to go over.
    [The prepared statement of Mr. Exum follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Chairman Royce. Thank you, Mr. Exum. Thank you to the 
panel. One of the questions that I was going to direct at Mr. 
Albright concerned a portion of your testimony where you said 
that the previous administration interfered in U.S. law 
enforcement efforts when it came to them blocking the efforts 
to arrest and convict Iranians and their agents engaged in 
breaking U.S. export and sanctions laws.
    One of the focuses I have is sort of reversing that policy, 
especially with respect to the IRGC, but what measures can we 
take to send the signal that extraditing and arresting and 
convicting those that are involved in breaking our laws has to 
be a priority?
    Mr. Albright. Well, first thing, I think some of these 
memos and extradition requests should be revisited. I mean they 
still exist, some cases may still be active. I mean these are 
not public cases. The other, and I must say one of the impacts 
that I heard very clearly was that this in a sense interfering 
in what the investigators were doing in our enforcement 
agencies was discouraging, and these are hard cases to launch 
and they hesitate to do more.
    So I think the administration should send a very strong 
signal that it fully supports these investigations and 
prosecutions of these Iranian and Iranian agents.
    Chairman Royce. So that would have to be through State and 
so it was the State Department----
    Mr. Albright. That is right.
    Chairman Royce [continuing]. That put the kibosh on it.
    Mr. Albright. Well, that is where they tended to die.
    Chairman Royce. Yes.
    Mr. Albright. So that is where they tended to die, but I 
think it has to be done at the White House level.
    Chairman Royce. Okay.
    Mr. Albright. And to get these cases moving again, because 
I think my understanding is Iran hasn't stopped its illicit 
activities and it is very important to counter them.
    Chairman Royce. Well, another way to counter it, and I will 
go to Ms. Bauer's comment here, but I bet there would be a 
tremendous ripple effect from sanctioning just one or two 
European companies for transactions with the Iranian 
Revolutionary Guard Corps. They are the main economic player in 
Iran.
    And I think you had a line in your testimony where you said 
that the application of U.S. secondary sanctions for dealing 
with the Iranian Revolutionary Guard Corps remains a 
significant risk for companies looking to reengage with Iran 
and that this application of secondary sanctions has never been 
done.
    So another question is why not and what would the impact be 
if our response now to their missile tests and maybe to General 
Soleimani's trip 2 days ago to Moscow is such a robust action? 
And let's push that button there.
    Ms. Bauer. Thank you, Chairman. Indeed, the remaining 
sanctions on the IRGC and the fact that they include secondary 
sanctions risks remains a great deterrent to businesses looking 
to reengage with Iran. And in fact that is one reason I think 
why you haven't seen action against a European country in 
particular is that they do not want to lose access to the U.S. 
financial system, and so they are able to look at the OFAC list 
and ensure that they don't do business with anyone on that list 
or anyone who holds a 50 percent or an aggregated 50 percent 
share of a business they are working with.
    So they are able to do some due diligence. Where they are 
not confident with the due diligence it appears that they are 
not engaging. But there are things that could be done to make 
it harder and to isolate the IRGC further, for example, 
designating additional IRGC affiliates to make it clear to 
those companies going in.
    Chairman Royce. So maybe those with less than a 50 percent 
ownership share but you could expand that out, or you are 
saying there is affiliates out there that we haven't captured 
yet?
    Ms. Bauer. There are affiliates who haven't been listed. 
Even those that are not listed by operation of law, companies 
are restricted or could be sanctioned for doing business.
    Chairman Royce. Why don't we do this on that answer. Why 
don't I just ask the panel if you have ideas on that, if you 
could give me some specifics, and I could just get to this 
Soleimani question which I wanted to ask, because it was a 
surprise to me, you know, to see him travel again to Moscow. 
This is the third time he has done it, and as a matter of fact 
he is there right now. And I would just ask the panel for any 
creative solutions for effectively pushing back on his 
continued travel.
    And the thing I find most objectionable here is that he has 
been, you know, fingered as the fellow behind the death of many 
Americans, the one who plotted the Russian-Iranian tag team 
slaughter that went on in Syria in the middle of the Iranian 
negotiations. I mean there have been so much that this guy, as 
head of the Qud Forces--which is in charge of assassinations 
outside the country--has been responsible for, attacks across 
Europe and so forth where they take out anybody perceived to be 
an enemy of the regime.
    I mean this is a really bloodthirsty guy. And it seems to 
me that the reason he is headed to Moscow for these meetings 
has got to be the ballistic missile systems or other weapons 
systems that he intends to introduce into the theater. So ideas 
on how to react to that? Maybe Mr. Modell, do you have a----
    Mr. Modell. One of the things that I have thought and again 
what I hear from Iranians all the time is why is the U.S. 
Government not doing more to come up with a large matrix of all 
IRGC officials that we know of, businesses that we know that 
are linked, and publicize it constantly and to show their links 
to corruption? I mean this isn't necessarily going to directly 
address the Soleimani issue, but I think it is going to 
significantly weaken the IRGC.
    So when you are talking about publicizing the----
    Chairman Royce. Well, I think this cuts into another point 
you made in your testimony here about the need to make some 
changes of the broadcasting into Iran so that yes, it is 
objective but we do touch on issues that is important there. We 
now have a single head of the agency who has the ability to 
direct information.
    And so as information spills out about corruption or 
whatever that access to that information on social media and on 
a platform of radio and television should be available so that 
people know exactly what has happened here with respect to the 
IRGC taking all of these assets usually through nationalization 
and transferring them to the ownership of the Revolutionary 
Guard Corps.
    I need to go to Mr. Engel. My time has expired. Thank you 
very much, panel.
    Mr. Engel. Thank you, Mr. Chairman. Dr. Exum, let me ask 
you this. In your testimony you pointed out one way in which 
Russia and Iran collaborate to destabilize the Middle East. You 
mentioned that Russia provides Iran with anti-access, area 
denial weapons like anti-ship cruise missiles and air defense 
systems. Obviously this is very disconcerting to us and our 
allies because their goal is using these weapons to inhibit 
freedom of movement in strategic waterways and airways.
    There have been Russian media reports that Iran and Russia 
are in discussions over $10 billion in weapons. How would you 
suggest the Trump administration respond to this?
    Mr. Exum. Well, I think one of the things that the Trump 
administration can do and then here with respect to sanctions 
that defer to the sanctions experts, because I am sure that 
there are aspects outside of the military lane that you can 
use. I think with respect to diplomacy, I will just focus on 
diplomacy and the military steps that I think he can take with 
respect to diplomacy by constraining the access to waterways.
    And look, these are, we don't need the oil and gas that is 
coming out the Persian Gulf as much as the global markets need 
them and as much as we need them for the stability of the 
global economy. So it is not just the United States or the 
Trump administration that has a stake in this, that has a stake 
in freedom of navigation and freedom of commerce in and around 
the Arabian Peninsula. I would think that you would start with 
a large multilateral effort to pressure Iran on the deployment 
of these weapons systems and on Russia on the sales of these 
weapons systems.
    From a military perspective we are already doing quite a 
lot. Again I don't think that the commander of NAVCENT would 
argue that his freedom of movement is in any way constrained 
right now, but it is clear that we need to do two things. We 
need to increase the degree to which we have ballistic and air 
missile, or integrated air and missile defense systems, within 
the Middle East. That includes both sales to partners and 
increasing partner capacity, but it also means that our 
partners in the region need to get more serious about their own 
maritime capabilities. Historically, maritime capability of the 
Navy has been the third of three services within most of our 
Gulf militaries. They need to get serious about their own 
efforts to be able to keep the waterways in and around the 
Arabian Peninsula secure.
    And I would defer again, like I said, to my Treasury 
colleagues or my colleagues from the Washington Institute with 
respect to what more we can do in terms of sanctioning those 
Russian businesses or those Iranians that are purchasing these 
types of weapons systems, Mr. Ranking Member.
    Mr. Engel. Thank you. Anybody else have comments on that?
    Mr. Modell. Mr. Ranking Member, the only thing I would say 
is that it is a very asymmetric process that Iran is involved 
in and that includes commercial acquisition of the conventional 
military stuff. Building on what Dr. Exum is saying, I think we 
have not done enough to work with our allies in the region, 
particularly in the GCC which is often the site of enabling 
Iran to do these things, to front companies based in their own 
Emirates, for instance, to develop the capabilities to work 
asymmetrically in a defensive capacity. And I don't think we 
are systematically oriented in that sense.
    Mr. Engel. Thank you.
    Mr. Albright, let me ask you this. You have criticized the 
IAEA for lack of transparency in reporting and I quote you, 
this is what you said: ``The IAEA reporting continues to lack 
critical technical details that implementation of the 
agreement. Its lack of information in the IAEA reports combined 
with the secrecy surrounding the decision making of the Joint 
Commission is a serious shortcoming on the implementation of 
the JCPOA and erodes support for this important deal.''
    Let me ask you this, what information is missing from IAEA 
reporting and what information do you need to be made public? 
What specific recommendations do you have for the Trump 
administration and Congress to encourage more transparency so 
that experts like you can better evaluate the implementation?
    Mr. Albright. Well, in my testimony I gave there is a 
footnote and I apologize for making a footnote. But essentially 
the IAEA is not reporting on almost any of the technical 
details that it used to report on--levels of enriched uranium, 
controversies with Iran. I mean Iran is pushing limits of the 
JCPOA. The IAEA may or may not be pushing back but it could 
report on the status of that. So I would say that they are 
providing very little information.
    On heavy water we hear a lot, well, they are over, you 
know, the cap of 130 tons by 100 kilograms, they leave out 70 
tons was sent off to Oman in a kind of a clever trick that in 
essence allowed Iran to be 70 tons over the cap on heavy water, 
if you judge that cap by the heavy water Iran owns and 
controls.
    So I think that there is a lack of information inhibiting 
analysis, and the lack of information is providing a false 
narrative about where things are at and we need a lot more 
information. Now I will say under pressure, some from Congress, 
some from us, some from the media, the Joint Commission did 
decide in December to start releasing its major decisions 
publicly. I mean I don't think they wanted to do that but I 
think that they felt the absolute need to do it. And so I think 
pressure does work in this case and I think the Trump 
administration should push for much more openness.
    Mr. Engel. Thank you, Mr. Chairman, my time is up. Thank 
you.
    Chairman Royce. Thank you, Mr. Engel. We go to Mr. 
Rohrabacher of California.
    Mr. Rohrabacher. Thank you, Mr. Chairman. And I would like 
to thank you and the ranking member for again providing us the 
information and a focus on a very significant element to our 
nation's security, and so thank you both. And I would identify 
myself certainly with your opening statement.
    I am however, and this panel has not changed my, I don't 
know if it is observation or my analysis that frankly our 
policy toward Iran and the mullah regime in Iran has been 
detached from reality in that it is basically wishful thinking 
of the worst sort. Let me just mention about Russia and how 
they have armed the mullah regime, this horrible dictatorship, 
with weapons to shoot planes out of the air and take care of 
that type of military threat.
    Quite frankly, we are not going to invade Iran. I don't see 
it even if they have a bomb we are not going to invade Iran. 
Those weapons are aimed at preventing some sort of, or 
countering a military threat to that regime which now has a 
positive relationship with Moscow. That if we are going to get 
rid of the mullah regime it won't be U.S. military personnel 
with U.S. weapons going in and doing that job.
    If we are going to get rid, and unfortunately all the talk 
about that and all the details about every little increment in 
which the Iranian mullah regime now is closer to getting a bomb 
has taken us away from the real solution, the only solution 
which is make sure that we deal with the people of Iran who 
hate the mullahs. And you are taking focus away from that by 
talking about weapons systems and this.
    We need to make, while we left the Baluch who would be in 
charge of the Strait of Hormuz I might add if we would support 
their fight against the mullah regime. The Kurds, there are 
more Kurds in Iran than there are in Iraq. The Azeris, we have 
Azerbaijan right next door that is willing to help. But all of 
this time, and even the Persian element were as ready to 
overthrow the mullahs several years ago in this Green 
Revolution and we let them go without any, even verbal, support 
for their effort.
    Now getting rid of the mullah regime by helping the people 
of Iran is the answer. You have Persians, the MEK, I know as 
everybody criticizes them because they have a checkered past, 
well, they also, they have been willing to help us get rid of 
the mullah regime and they have been struggling for a more 
democratic government along with the other Persians who are 
there. Ninety percent of the Persians don't like it. And like 
you said as you would expect from a journalist to focus in on 
the corruption and the repression that is going on. Well, if we 
focus on that that is how we would mobilize the only real power 
we have to get rid of them which is the Iranian people 
themselves.
    And one last note about this idea about all this focus on 
how much heavy water they have and et cetera, et cetera. We 
gave them $150 billion with this nonsensical treaty that we 
signed with them, $150 billion were made at their disposal. How 
much do you think it would cost them to buy a nuclear weapon 
from Pakistan? It wouldn't cost, I bet it wouldn't even cost $1 
billion. I bet they could get it for in the tens of millions, 
if not $100 million. The fact is that regime with its hands on 
a military capability of nuclear weapons, that is the threat. 
It is the regime, it is not the weapon itself.
    So I think we should quit focusing America's attention on 
things that will not change the situation and make us any 
safer. And again talking about how much heavy water they have 
and how are they going to be able to stop them from building 
their own bomb, if they want to bomb now they can afford to buy 
it. And the answer is the mullahs have got to go. The mullah 
regime has to leave and how we get rid of it is not through 
American military operations, but instead reaching out to the 
people of Iran and helping them win their freedom.
    And that is, if anybody in the panel would like to spend 
their time refuting that, please go right ahead. How about my 
journalist friend, go right ahead.
    Mr. Exum. Well, sir, first off, thank you for that. I will 
be blunt. First off, you know, if it were to come to those 
types of activities, and then I well know your biography, I 
know your experience, you would know that the Department of 
Defense, this is not within our wheelhouse so to speak. You 
know, any outreach toward separatist movements is usually done 
either clandestinely or overtly through diplomatic channels. 
And there have, you know, certainly been examples where we have 
done that.
    I think with respect to, I will focus on one thing which is 
the note about the dollars that Iran has. First off, you know, 
Iran always has the cash on hand if they wanted to, you know, 
purchase a nuclear weapon. I think--and I hate to do this, I am 
putting on my Ph.D. hat now--there is a lot of academic 
literature and a lot of analysis that would suggest that that 
is not a really likely thing.
    So if you were the Pakistanis and you sell a nuclear weapon 
to somebody, first off, you lose all of the control that you 
would have on that nuclear weapon and you would get all of the 
blowback if it is used. So I think that threat, although it is 
real and it is something that we carefully monitor, it is 
something that contains a lot of risk for anybody that would 
sell that.
    The second thing I would say is that when it comes to money 
and what the Iranians are doing in terms of the asymmetric 
activities, in terms of these nefarious activities, a lot of 
these things are really cheap and they didn't need the money to 
keep doing this stuff. What they are doing in Yemen, what they 
are doing in Syria and Iraq, it is not that expensive to begin 
with.
    And as we have established, if the Quds Force wants to get 
a piece of the budget they are going to get a piece of the 
budget. They are going to get their way and thus far they have 
gotten their way with respect to I guess what we would call the 
Islamic regime's discretionary spending. But, and I don't think 
that the amount of money that was freed up, which is a little 
less when you look at actually the liquid assets, has had much 
of an effect on what Qasem Soleimani and his lieutenants are 
doing in Iraq and Syria.
    Chairman Royce. We go now to Mr. Brad Sherman of 
California.
    Mr. Sherman. The gentleman from California, Mr. Royce, 
makes some interesting points and the chairman was quite 
indulgent with him on time. I hope that inspires a whole new 
approach.
    Chairman Royce. Well, certainly with respect to Mr. Brad 
Sherman it does, so thank you.
    Mr. Sherman. Because I do want to deal with some of the 
points he raises. But before I do that in some minds the 
picture of the Islamic Republic of Iran, this regime, is the 
smiling face of its foreign minister Javad Zarif--dapper, 
debonair--in Geneva. The real face of this regime, the real 
picture of this regime is Alan Kurdi, that 3-year-old boy on 
the beach in Turkey in the Mediterranean, one of 400,000 
Syrians who died as a result of the Islamic Republic's support 
for the butcher in Damascus.
    I for one don't think that we can excuse Russian arms sales 
to Iran on the theory that we are going to achieve regime 
change any time soon. We have watched the Arab Spring. We have 
seen which regimes survive and which don't. Those regimes that 
have 50,000 thugs willing to machine gun their own citizens 
survive. Those whose army is unwilling to do that and are 
confronted by their own people don't. And we have had other 
panels so I want to ask this panel, I have been assured by 
other panels that there are tens of thousands of Quds Force 
soldiers willing to machine gun other Iranians if that is what 
it takes to keep this regime in force.
    The gentleman from California says that the weapons that 
Russia is selling they are only defensive, it wouldn't affect 
us. But of course the S300s are the anti-aircraft weapons that 
make it much more difficult for Israel or even the United 
States to take out this nuclear program if that becomes 
necessary, and the fact that all options are on the table is 
the only thing that keeps Iran from not cheating more on the 
JCPOA and one of the only things that got them to sign it.
    But I want to focus on the gentleman from California's idea 
of buying a nuclear weapon. He mentions Pakistan, but Pakistan 
might well listen to their friends in Saudi Arabia. If they 
have a bomb for sale maybe they would sell it there. They are a 
Middle Eastern country, or nearly one, and would be directly 
affected.
    I want to focus a little bit about our friends in North 
Korea. The death of Kim Jong Nam illustrates that we should 
never have taken North Korea off of the State Sponsors of 
Terrorism list. North Korea provided the kit that was used to 
create a nuclear bomb-making facility that was destroyed by 
Israel, located in Syria, destroyed by Israel last decade. Do 
any of our panelists have any idea how much money North Korea 
got in return, not for a nuclear weapon but just a kit to build 
one, technology? I am seeing four shaking heads.
    But I would point out that North Korea is in need of cash. 
Iran has some already loaded on pallets wrapped in cellophane. 
And I know that Iran would want the indigenous capacity. I know 
that they would want more than one weapon. But will any of you 
comment on why has Iran not purchased a weapon from North 
Korea? Knowing now that North Korea has a few more weapons than 
they need to defend themselves from us, they could afford to 
part with one. Mr. Albright.
    Mr. Albright. Yes, I think there is worry. I mean, and a 
nuclear weapon can be transferred in different ways. It doesn't 
have to be a fully commissioned, workable----
    Mr. Sherman. Yes, it could be just the fissile, they could 
sell the fissile material, they could sell the weapon, they 
could sell----
    Mr. Albright. That is right. And I think there is a lot of 
worry.
    Mr. Sherman [continuing]. The two separately.
    Mr. Albright. Yes, and I think there is a lot of worry and 
I think it needs to be looked at, just what is the level of 
cooperation? I mean I don't know of any credible evidence right 
now saying that Iran and North Korea are cooperating on nuclear 
weapons related or nuclear weapons issues, but there is a lot 
of cooperation on missiles. They have common enemies. And I 
think it needs to be looked at much more----
    Mr. Sherman. Do any of you have an opinion on whether the 
Syria-North Korea transaction of last decade would have 
inevitably involved Iranian observers, advisers, or cash? 
Anyone have an opinion on that?
    Mr. Albright. There has been statements or some evidence 
that Iran would have had some involvement in it. I was never 
able to confirm direct involvement. But given the closeness of 
Iran and Syria, fortunately that reactor doesn't exist anymore 
and there could certainly, cooperation could----
    Mr. Sherman. I am going to try to sneak in one more 
question which is indulgent of the chairman, but on the comment 
that we need to prevent U.S. banks from financing any aircraft 
sales to Iran because that creates an incentive for U.S. banks 
to come here and lobby us in favor of Iran to make sure they 
get repaid.
    The press reports are of discussions of a $10 billion 
military hardware deal between Russia and Iran including tanks, 
artillery, and aircraft. The JCPOA says Iran can't buy those 
kinds of weapons without the approval of a secret, five-member 
committee that operates in secret but we have a seat on that 
and can veto such sales. Is there any possibility that the 
United States would approve or fail to veto, any transfer of 
weapons from Russia to Iran?
    Mr. Albright. I don't think so. If I can say the problem is 
that the ban ends after 5 years or earlier if the IAEA issues 
its broader conclusion on the additional protocols. So really, 
this duration issue transcends nuclear to conventional and 
ballistic missile and it is something the Trump administration 
is going to have to factor in strongly into its policy review 
on Iran of how do we deal with these exemptions that in essence 
take place in not that distant future.
    Mr. Sherman. Okay. I will give one more comment and then I 
will yield back. No, I will yield back.
    Chairman Royce. Let's do this.
    Mr. Sherman. I will yield back.
    Chairman Royce. Let's get back to 5 minutes and let's start 
with Steve Chabot on that from Ohio. Thanks.
    Mr. Chabot. Thank you for your indulgence. As we all know, 
ultimately the President became aware because most of us didn't 
like or agree with the Iran deal and ended up taking action on 
his own. And some would argue that the previous administration, 
the Obama administration, had so much invested in the deal that 
they overlooked provocative actions, overlooked, arguably, a 
whole series of flagrant violations of the deal itself, and 
Iran pretty much got away with murder, I think, literally in 
some cases, but figuratively also.
    I would just like to go down the line and see, what do you 
think of what a lot of people think about this, the fact that 
the administration did overlook far too much, some of those 
things which you have already commented on here today, because 
this was one of their great accomplishments, something some 
people thought couldn't be done.
    So I will start with you, Ms. Bauer.
    Ms. Bauer. In terms of potential violations on the margins 
of the JCPOA, I think it is important to consider proportional 
responses. In my testimony there is a section where I look at 
the use of proportional responses to what the previous 
administration may have called ``deviations'' in terms of 
compliance with the deal, but what this administration might be 
more inclined to call ``violations.''
    And so I think it is important to have options available 
short of abrogating the deal. Those could be things like not 
approving decisions that come in front of the Joint Commission 
or suspending licensing, not the licenses themselves perhaps, 
but suspending licensing under the agreement until such issues 
are resolved.
    Mr. Chabot. Mr. Albright.
    Mr. Albright. I think my criticisms are fairly well known. 
I thought that conditions should have been stronger in many 
cases. I mean I did not support the deal despite a lobbying 
effort on the part of the administration. And I had supported 
publicly the JPA, but I thought there were several cases, 
conditions that just weren't strong enough where I could 
support them. I didn't come out against it.
    I have since, with implementation, become more critical of 
that. I think too many concessions were made, many more noes 
should have been given rather than yeses, and I think it has 
made this situation more difficult to deal with. And one of the 
challenges of the Trump administration is going to be to 
reverse this, and I think it is going to be challenging.
    And I think the things I put in my testimony, the short 
term things, are the things to do today. I mean obviously you 
can't get them all, but there are a lot of opportunities to 
start changing the nature of the implementation that can start 
today and the U.S. has the power to do it. But I do think it is 
going to be tough.
    And then there is this issue of, there are these problems, 
I mentioned one, and Congressman Rohrabacher in a sense is 
alluding to them, that the duration is a real problem in this 
agreement. I mean I wish 10 years was a long period of time in 
the Middle East, but it is not. And in some sense the major 
limitations of the deal start to unwind quicker than it took to 
negotiate this deal, if you go back to the start point as 2003.
    And so you have a real problem of how does now the 
administration deal with these conditions that are going to 
unwind in the future with conventional weapons, ballistic 
missiles----
    Mr. Chabot. Thank you. Let me cut you off there because 
some of us are being held to 5 minutes.
    Mr. Albright. Okay, I apologize.
    Mr. Chabot. Mr. Modell.
    Mr. Modell. No, to a couple of things to Mr. Rohrabacher's 
point, I think that the deal is actually a large setback to 
those in and outside of Iran who were eager to see us to 
actually do things that would lead to momentum for channeling 
resistance against the regime.
    And I think, you know, everything from 2009 when the Green 
Movement started happening and there was a moratorium on 
dealing with members of the Green Movement and actually aiding 
people as they were trying to channel resentment and figure out 
how to take disparate clusters of resistance and form an actual 
resistance movement for the first time in 35 years at the time, 
it was a tremendous failing and it was all in the interest of 
ill-conceived rapprochement in the nuclear deal.
    I won't comment on the nuclear deal in particular, but the 
one thing I think it is important to consider is that the deal 
itself--in a sense from an intel perspective or a law 
enforcement perspective--was a real setback, because now 
everyone is so eager to preserve the deal that we are putting 
the brakes on and we are cautiously walking around the idea of 
law enforcement. The verification of this still is critical. 
And I think to the extent that the CIA and the intelligence 
community were actually on the right path of developing better 
ways of working with law enforcement--detecting, disrupting, 
and dismantling counter proliferation networks--there has been 
a setback to that degree. And I think now we have an uphill 
climb in terms of verification and counter proliferation.
    Mr. Chabot. Thank you. Mr. Chairman, my time has expired. 
Can Dr. Exum respond? I leave it up to you.
    Mr. Exum. Mr. Chairman, with permission, could I briefly 
respond?
    Chairman Royce. Yes.
    Mr. Exum. Thank you so much, Mr. Chairman. First off, 
Congressman, I believe we overestimated the degree to which the 
diplomatic channel we established between Secretary Kerry and 
Zarif who could bear fruit outside of the nuclear negotiations. 
I think we thought it could, bottom line is it didn't. They 
didn't want to talk about anything except for the nuclear deal.
    Second, in terms of pushing back against other things Iran 
was doing, there were lots of reasons having nothing to do with 
the nuclear deal why we didn't. In Syria, the President as you 
all know took several options off the table in terms of what we 
could do in Syria. In Iraq we had a fight against the Islamic 
State to prosecute that we didn't want to endanger by pushing 
back against Iran too soon. And then third, in Yemen, I don't 
think the administration wanted to get drawn any deeper into 
Yemen. It is actually in Yemen and specifically with respect to 
the threat to freedom of navigation where I think we could have 
been more aggressive and think that would have made sense.
    Chairman Royce. We now go to Mr. Greg Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman. And let me just say, 
first of all, I appreciate the opportunity to be able to 
examine our policy toward Iran. I think that this will be our 
seventh full committee hearing on Iran in the past year, and I 
appreciate the opportunity to understand the threat that Iran 
poses to the Middle East and I know that we will have further 
questions.
    However, I must also say with the ongoing new 
administration and President Trump's bizarre policies toward 
Mr. Putin and Russia, as you have said, Mr. Chairman that 
Russia has demonstrated that the hope of cooperation cannot 
survive the cold calculation of his narrow interests, I would 
hope that and I know that we are going to have some hearing on 
Russia in a couple of weeks or so, but I hope that we have more 
focus on Russia and its involvement because it seems to be 
threatening our very democracy.
    It has come out clearly about the Russian involvement in 
our elections for the President of the United States here in 
America, and Russia's involvement in France and in Germany and 
those elections there. It seems to me that there is a great 
threat of what Russia is doing around the world.
    And being a committee that has gotten together and, you 
know, I see the Senate is starting to move on that side in a 
bipartisan way to start talking about where Russia is and what 
Russia is doing, whether it is in Iran or other places around 
the world, and what the connections are between Russia and our 
current administration, because it seems as though every day 
there are more ties to Russia's intelligence services that are 
being discovered at the highest level of our national security 
apparatus.
    So I would think that this committee, and one of the things 
that I do like about this committee is that we work in a 
bipartisan way. That we would be the committee, since it does 
not seem that anybody on the House side, and I do see some 
senators on the other side of the aisle starting to talk about 
doing something, but I would hope that--and I don't hear any 
committee or anything being done on the House side. I know that 
when we had Benghazi, et cetera, there was other committees 
that stood up and did certain things at their end for 
investigation.
    I would hope then that the Foreign Affairs Committee in a 
bipartisan way would step up and say, ``there is a threat to 
our democracy,'' and we hold many hearings. In fact we could 
lead Congress in coming together to say that we are going to 
look into what is happening in Russia and Russia's narrow 
interest in how they are affecting us here in the United States 
of America.
    And look at what the President's positions have been and 
the people that are affiliated with him, because just recently, 
just even yesterday it comes out that even during the campaign 
there has been many individuals from the Trump campaign that 
had some contact with Russia. And clearly when we had General 
Flynn, who had to leave because of his connections with Russia.
    So I think that it provides a unique opportunity for us to 
have some continuous hearings on Russia, its relationship and 
contact with the United States, what it is doing, what it is 
not doing, its connections with the current administration. 
That conversation is very important to every American whether 
you are Democrat, whether you are Republican, whether you are 
Independent, it is something that I think is going to the 
heart.
    And as the camera of history rolls it will be looking back 
on what did we do in the United States Congress? What did we do 
at the time that our own democracy was threatened by outside 
entity? Did we fully investigate and go into it as an 
independent body, a separate branch of government to make sure 
that we have done everything to protect ourselves?
    So, you know, it is good that we and we could even talk 
about----
    Chairman Royce. Will the gentleman yield?
    Mr. Meeks. We could even talk about, and I am not going to 
get a minute left, but I know we only get five.
    Chairman Royce. I understand.
    Mr. Meeks. We could even talk about, you know, Russia, you 
know, and I think we have had some of these conversations about 
Russia and its involvement with reference to Iran, of clearly, 
you know, we have heard questions here today talking about 
Russia providing ballistic missiles to Iran. We have talked and 
heard about that had Russia, had discussions over $10 billion 
in military hardware. So that is, you know, a problem to us 
even as you talk about dealing with Iran.
    And then when you figure out, you know, Russia and the 
consequences of the U.S. and Russian cooperation which has, you 
know, this administration has expressed openness to U.S. 
cooperation with Russia in Syria and how does that affect us in 
Iran and can you do an agreement with Russia? What is this deal 
with Russia and this administration?
    We have got to get to the bottom of this, and I think there 
is nothing more important for us as members of the legislative 
branch and the Foreign Affairs Committee for us to focus on 
where, what, when, and how Russia is involved with this 
administration. I yield back.
    Chairman Royce. Well, thank you, and I thank the gentleman 
for yielding. Even before this week's events I have been 
discussing with Ranking Member Engel a hearing focused on the 
way in which Russia works to undermine Western democracies 
including the United States, including France and Germany, and 
including efforts to undermine NATO. As the intelligence 
reports from January noted, they did that here. They will do it 
again in the upcoming European elections in France and Germany.
    So it is appropriate that we hear from experts on the 
appropriate steps to be taken in response and this will 
continue the critical oversight role that our committee has 
played on U.S.-Russia policy. I will remind the members that we 
have had hearings specifically on Russia and its aggressive 
acts in the past and, after all, this is the committee that led 
the way to impose sanctions on Russia. We did that after its 
invasion of Ukraine. And this is the committee that has been 
sounding the alarm about Russia's weaponization of information 
if you go through the hearings that we have had on RT, and I 
would expect that to be the first hearing we hold after next 
week's recess, as I have shared with Mr. Engel.
    So I appreciate the gentleman's observations and we now go 
to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce and 
Ranking Member Engel, for continuing to focus on the real and 
serious threat of Iran. As recent events have indicated and as 
you both have pointed out, Iran's provocative actions have not 
subsided in this post nuclear deal world and in fact, in many 
aspects, its illicit activity seems to have been on the rise. 
Iran remains a direct threat to our national security, to our 
friend and ally the democratic Jewish
    State of Israel, and to the stability of the entire Middle 
East.
    Often lost in the discussion of the JCPOA or Iran's 
ballistic missile test is how closely this all mirrors North 
Korea's nuclear and ballistic missile programs. Our Middle East 
Subcommittee has convened several hearings on this topic in the 
last few weeks. North Korea and Iran have been suspected of 
having some level of nuclear cooperation; at the very least, 
Iran learned from the North Korea playbook on how to win 
concessions from the West and still get its nuclear weapons.
    For certain these two rogue regimes have a long history of 
collaboration on ballistic missile development. Iran's latest 
test was apparently a ballistic missile of North Korean origin. 
This is a very dangerous alliance, we must not continue to view 
Iran and North Korea as two separate tracks. We have the Iran, 
North Korea, and Syria Nonproliferation Act, INKSNA, which now 
could be a valuable tool to prevent proliferation of nuclear, 
radiological, chemical, or ballistic missile material to these 
regimes. Unfortunately, the previous administration was 
severely deficient in its reporting requirements under INKSNA. 
A GAO report found that the administration was years behind in 
its reporting, years behind, which had the unfortunate 
consequence of delaying sanctions on proliferation activities 
by Iran. By doing so, the previous administration effectively 
blocked key sanctions against Iran while the nuclear 
negotiations were ongoing, much to our detriment.
    In order to be effective we must fully and vigorously 
enforce sanctions and we must look at ways of expanding them if 
we are to curb Iran's dangerous actions. This includes, Mr. 
Chairman and Mr. Ranking Member, rigorous enforcement of the 
JCPOA and it includes reimposing some sanctions lifted by the 
JCPOA that fell under more than just nonproliferation 
sanctions. That is why I will introduce my Iran, North Korea, 
and Syria Nonproliferation Accountability Act which will modify 
the existing law and give us greater flexibility to hold these 
regimes and those individuals and entities accountable for the 
proliferation of their illicit activity. So I ask the panel 
kindly, could you tell us a little bit more about the Iran-
North Korea nexus and what that proliferation network looks 
like, especially as it relates to their ballistic missile 
collaboration?
    And finally, Mr. Albright, you discussed Iran repeatedly 
taking advantage of loopholes and going over the threshold on 
heavy water and low enriched uranium. For what purpose would 
Iran need to enrich more than the alloted 300 kilogram cap on 
low enriched uranium or 130 metric tons of heavy water?
    Thank you, Mr. Chairman and Mr. Ranking Member.
    Mr. Albright. It is very hard to penetrate the Iran-North 
Korean cooperation. I think it is better left to closed 
hearings to really get into that. I mean one thing that can be 
said though, and it is a little bit of an answer to an earlier 
question, is I think it is very important for the United States 
to sanction companies in Europe and in China that are linked to 
providing goods to Iran and North Korea.
    And I bring up the European side of this mainly because it 
is very hard for the European countries now to do that. Their 
sanctions or listing of companies can be challenged quite 
easily because of the nature of their system, and I think it is 
important that the U.S. sanction European and Chinese 
companies.
    Now in terms of taking advantage of the loopholes, and I 
listed several, now why would it need to enrich more? I mean I 
don't think it does. I think it just wants to push the 
envelope, create precedence. It wants to undermine the 
limitations of the JCPOA that were, at least from the U.S. 
point of view, intended to be pretty robust on that limit. They 
want to be able to justify why they would need a large gas 
centrifuge program, and one of the ways they are going to try 
to do it is by developing an indigenous fuel fabrication 
capability that uses low enriched uranium which of course has 
to be tested, you have to go above the limit to make more 
enriched uranium for the test fuel.
    And by doing that when the international community would 
want to stop enrichment, the justification for the enrichment 
would be deeply embedded in a civil nuclear argumentation 
whether that is the original or the ultimate intention or not.
    So I think again it is for Iran----
    Ms. Ros-Lehtinen. Thank you, sir, I am sorry, I was long-
winded and ran out of time.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    Ms. Ros-Lehtinen. Thank you, sir. Thank you, again.
    Chairman Royce. Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And I appreciate the 
chairman's recitation of groundbreaking work done by this 
committee on Russia and I agree with him. I guess the concern 
on this side of the aisle that could easily be reassured is 
moving forward. Minority wrote----
    Chairman Royce. If the gentleman would yield.
    Mr. Connolly. Only if he suspends my time. If you suspend 
my time I am happy to yield, because you only give me 5 
minutes.
    Chairman Royce. Mr. Connolly, go ahead with whatever points 
you want to make.
    Mr. Connolly. All right. Three months ago, the minority 
wrote a letter to Eliot Engel, the ranking member, asking him 
to deliver it to the chairman asking for an immediate hearing 
even before the inauguration on this Russia connection. We 
have, to my knowledge, not received the reply.
    Earlier this week, Mr. Cicilline and all of the Democrats 
signed a letter asking that General Flynn be brought before 
this committee so this committee can examine the foreign policy 
implications of what just happened. And I certainly look 
forward to an answer on that request. So I associate myself 
with remarks of Mr. Meeks that moving forward that is what we 
are concerned about.
    And I continue to hear gratuitous slaps at the previous 
administration on the subject of Iran because the agreement 
wasn't all encompassing. Dr. Exum, are bilateral agreements 
between us and another country, are they typically all 
encompassing? Is that the record?
    Mr. Exum. No, they are not. And in this case we again, this 
one particularly----
    Mr. Connolly. So when we sign nuclear, well, going back to 
the very first nuclear test ban treaty during the Kennedy 
administration with the then Soviet Union, you mean those 
agreements did not address human rights violations or Jewish 
immigration or Gulags or misbehavior in other parts of the 
world that were causing us great grief?
    Mr. Exum. Not only that, Congressman, I seem to recall that 
we still faced significant conventional overmatch in the 
continent of Europe.
    Mr. Connolly. So, well, certainly the JCPOA has failed 
though, Dr. Exum, isn't that right? I mean every single metric 
set by the JCPOA has been violated by Iran or they have 
cheated, and we have caught them at it, right?
    Mr. Exum. Well, I think with respect to the JCPOA I think 
that there is room to push back against Iran in a more robust 
way, but we ought to do so with caution.
    Mr. Connolly. Dr. Exum, is there a single metric they have 
not reached?
    Mr. Exum. I am not, I would defer to the Energy Department 
and to the Department of----
    Mr. Connolly. Enrichment of uranium--they reached the goal. 
The Iraq production facility, plutonium reactor--they filled it 
with cement. Shipping enriched material out of the country--
they did it. You know, inspections--they have done it. I mean 
by all accounts they have pretty much met the metrics. Now we 
have to monitor it, and I agree with my friends on the other 
side of the aisle. In fact, I have introduced legislation that 
would create a Helsinki-like commission to do just that so it 
is hopefully removed from politics and partisanship.
    But compliance obviously remains an issue, but you can't 
argue that the JCPOA has been a failure. And that is why after 
hearing all of the predictions for a year or more of how it 
would fail and they would cheat and by the way it would 
accelerate them as a nuclear power, surely you would agree that 
is not what happened. They are not closer to nuclear 
development today than before the JCPOA, are they?
    Mr. Exum. No, that is exactly right. Now Mr. Albright may 
have more to add, but as far as I----
    Mr. Connolly. I only have 1 minute and 24, and I have a 
feeling the chairman is going to be strict about it, so let me 
talk about the Russian connection. How about we talk about the 
new President.
    Mr. Exum. Sure.
    Mr. Connolly. And I listened with interest to your 
testimony. In some ways this Russia connection makes it harder, 
not easier, for us to try to deter or address Iranian behavior, 
does it not?
    Mr. Exum. Well, I believe it absolutely does.
    Mr. Connolly. Please explicate.
    Mr. Exum. Well, especially with respect to Syria, I think 
we have seen many disturbing, and on the one hand the coalition 
in Syria they are not as, the opposing coalition in Syria they 
are not as stable as our own counter-Daesh coalition is, so 
there are some fissures between the Russians and the Iranians, 
for example, or between Hezbollah and the Russians.
    But I am growing increasingly alarmed by the degree to 
which their coalition activities in Syria have brought Russia 
and Iran closer together. We have certainly seen just images on 
social media of Russian Spetznosts on the ground in Syria with 
Hezbollah patches on in a way that alarms us in the same way 
that U.S. special operators on the ground in northeast Syria 
working with Kurdish groups alarms the Turks.
    And I think quite frankly we have reason to believe that 
Russia's introduction and escalation in Syria in the fall of 
2015 made it more difficult, not easier, to push back against 
what Iran was doing in Syria and elsewhere in the region, sir.
    Mr. Connolly. I thank you.
    Chairman Royce. We go now to Mr. Joe Wilson of South 
Carolina.
    Mr. Wilson. Thank you, Mr. Chairman, and I appreciate you 
and Ranking Member Eliot Engel for your bipartisan approach to 
the issues that we are facing concerning Iran. I am grateful 
that we had a bipartisan success in adding language to the 
National Defense Authorization Act to require an analysis of 
Iranian missile testing.
    The Trump administration took a good first step in 
designating Iranian missile proliferation networks in response 
to the recent tests. More needs to be done. And for Ms. Bauer, 
what are your recommendations for near and short term actions 
to address Iran's ballistic missile system?
    Ms. Bauer. Thank you. I think there are a lot of options to 
use the existing authority. It is like the authority that was 
invoked in last month's action to continue to identify 
procurement networks. What is especially impactful can be 
targeting those previously non-public affiliations between 
commercial fronts and Iranian actors, because these front 
companies need to operate, they need to appear to be legitimate 
in order to procure dual use goods. They need to hold bank 
accounts, and exposing this publicly can be incredibly 
disruptive.
    Mr. Wilson [presiding]. And I appreciate that. And of 
course what they are doing violates U.N. resolutions too, so it 
really is insulting in light of the Iranian nuclear deal that 
everything seems to continue. In fact, Mr. Albright, apologists 
for the dangerous nuclear deal claim, ``If Iran cheats, we will 
know it.'' I agree with Mr. Rohrabacher earlier who said this 
is wishful thinking which puts American families at risk of 
attack. What is your assessment?
    Mr. Albright. In the short term, with the program rolled 
back quite a bit the chance of detecting cheating is pretty 
good, but in the longer term I would say it is not. And that is 
why it is critical to, in a sense, really deal with this issue 
of access by the IAEA. Iran will have greater incentives to 
cheat in the future if it now can limit the ability of the IAEA 
to access.
    And in the longer term, I mean I don't think this deal can 
be verified after a certain number of rollbacks in the 
conditions. If you are talking 10, 15 years from now, I think 
it will be extremely difficult to verify this arrangement if 
Iran builds up its nuclear program as it stated it is going to 
build up.
    Mr. Wilson. Well, to me it is such wishful thinking, the 
notification, the number of days we have to provide, the fact 
that there are no Americans serving on the inspection teams. 
This is beyond wishful thinking. It is putting the American 
families at risk.
    Mr. Modell, Obama administration officials repeatedly 
incorrectly testified that the dangerous nuclear agreement 
would in no way impact our pressing Iran on human rights and 
sanctioning those responsible for the brutal treatment of the 
Iranian people. However, there have been no designations for 
human rights abuses since the nuclear deal was implemented 
despite continued calls from Congress to do so. What specific 
steps can the new administration take to press Iran on human 
rights?
    Mr. Modell. First of all, in terms of the first thing is 
listing individuals for human rights abuses. The second thing 
though, and I have spent a great amount of time here on human 
rights abuses and terrorism and the other violations of the 
Iranian regime, but on human rights in particular is to use the 
media tools that we are funding that we are spending millions 
of dollars on every year to highlight those things and to make 
it an integral part of U.S. policy pressuring the regime from 
the outside.
    Mr. Wilson. And I appreciate so much Mr. Rohrabacher 
pointing out that the prior administration, we had such an 
opportunity with the Green Revolution. I had many friends in 
South Carolina, of all things, Iranian-Americans who had such 
hopes for regime change to give opportunity to the 
extraordinary people of the culture of Persia, to be under a 
theocracy that is so debilitating and so threatening to all the 
neighbors. And with two sons who served in Iraq, I know 
firsthand where the IEDs came from, and anyone who has faced 
that understands.
    And this really follows too, something never to be 
forgotten and that was the bombing of the Beirut Marine 
barracks. Hundreds, 283, I believe, Americans murdered and it 
was by the Iranian regime, the largest explosive device since 
Hiroshima and Nagasaki. It should not be forgotten.
    I now yield to Mr. Deutch of Florida.
    Mr. Deutch. I thank the chairman. First, Mr. Modell, I want 
to thank you for bringing up the issue of Iran's abduction of 
Iranian-Americans and dual nationals.
    I would also like to take this opportunity to note that 
March 9th will mark the 10th anniversary that my constituent 
Bob Levinson went missing off of Kish Island. And as I have 
said at every hearing that we have had about Iran, that has to 
continue to be Issue 1 in every discussion that we have with 
the Iranians. There is a new administration here, and I urge 
this administration just as I urged the last administration to 
make this a very important priority. And I appreciate you 
raising the issue.
    Mr. Albright, you criticized the IAEA for a lack of 
transparency. I am very concerned about that as well. My 
understanding is that the new administration hasn't reached out 
to the IAEA yet to discuss its monitoring of Iran. Clearly that 
is a problem. They need to hear from our representatives to the 
IAEA. There needs to be an exhaustive discussion with the 
coordinator for Iran nuclear implementation, whom I understand 
still holds that position. The administration should do that, 
but I also, Mr. Chairman, would urge this committee in order to 
tackle the issue of transparency to request that our 
representatives to the IAEA and the coordinator come to testify 
here in front of us to address specifically the transparency 
issues that Mr. Albright has raised. They are very serious. 
They will impact not just this deal in this year, but as Mr. 
Albright rightly points out, as the deal carries on for the 
remainder of its term. So Mr. Chairman, I hope that you will 
consider that.
    And finally, Dr. Exum, I want to just spend my remaining 
couple of minutes talking to you about the ``strategic 
flirtation,'' I think is how you referred to it, that this 
administration has engaged in with Russia. Before getting 
specifically to Russia and Iran that flirtation also takes 
place as there is a Russian spy ship off of our coast and as 
there is a mock attack on a U.S. destroyer in the Black Sea and 
at a time when Russia has now deployed a cruise missile, and 
then focus with that as background focus on Iran for a minute.
    How do we engage in the ways that this administration has 
seemed intent on doing with Russia while Iran has thousands of 
fighters and proxies like Hezbollah fighting alongside the 
Russians in Iran and as this committee and this Congress look 
at additional sanctions outside of the nuclear area, Iran's 
support for terrorism, for example, how do we do that in an 
effective way when we are simultaneously engaged in this new 
relationship with Russia that weakens our ability to do what we 
need to?
    Mr. Exum. Well, thank you, Congressman. I will be blunt. I 
don't think you can do it. I think that--and I am unfortunately 
the veteran of many weeks spent across a negotiating table with 
Russians in Geneva over the last year trying to find some way 
forward on the conflict in Syria. We conducted these 
negotiations as Russia was enabling the destruction of East 
Aleppo and the slaughter of thousands of Syrian civilians. We 
did so in an effort to determine whether or not Russia might be 
some sort of partner in Syria, whether they could use their 
leverage over the regime, over Iran, over Hezbollah, to broker 
some sort of peace in Syria.
    And at the conclusion of that quite bluntly, Congressman, I 
don't think that Russia necessarily has the influence over the 
Syrian regime to be able to broker any type of peace. And I 
think that frankly Russia and the Iranians have more common 
cause than they do any strategic disagreements.
    So for me again, Congressman, I just don't see the 
administration's outreach toward Russia, I just don't see how 
they can do that without strengthening the Iranian hand in 
Syria, without strengthening the Iranian hand regionally, 
without strengthening the hand of groups like Hezbollah which 
pose a clear threat to the state of Israel, and without 
emboldening groups like Hezbollah and these Iranian-backed PMF 
that potentially pose a threat to U.S. forces in Iraq in 
addition to the Iraqi state.
    Mr. Deutch. I appreciate that.
    Mr. Chairman, just before I yield back I would note for the 
record the reason that it is so important to engage immediately 
in a bipartisan investigation into the relationship between the 
White House and Russia is not just because of leaks, which 
seems to be the President's biggest concern, but because of the 
policy implications that stretch not just to U.S., Russia, and 
our discussions with our NATO allies, but all the way to Iran 
and the threats against the United States and our allies in the 
region that Russia may be contributing to. And with that I 
yield back.
    Mr. Wilson. And thank you, Mr. Deutch. We now yield to the 
judge, Congressman Ted Poe of Texas.
    Mr. Poe. I thank the chairman. I am going to talk about 
Iran which is I think the basis of this hearing. Maybe we will 
have a hearing on Russia at some point.
    I think we gave away the farm, the mineral rights, when we 
made the Iranian deal. I couldn't disagree with you more, Dr. 
Exum, about the Iranian deal. It was a bad deal for the United 
States. We gave them $150 billion that they should not have 
gotten. I believe that money did not go to build schools and 
hospitals in Iran, it went to the IRGC which runs 80 percent of 
the economy, and the IRGC funds terrorist operations throughout 
the world, namely with their proxy group Hezbollah.
    So I want to talk about Iran not Russia, and Iran and their 
status in the world today. One of you mentioned rules of 
engagement, hopefully we will change the rules of engagement 
with Iran. I hope that we do and we don't find ourselves in 
another situation like in the last administration on January 
the 10th or 12th of 2016 when two of our river command boats 
surrendered to the Iranians, surrendered.
    So much for the American phrase, ``Don't give up the ship. 
We gave up two ships to the Iranians, and Secretary Kerry 
almost apologized. We still haven't gotten the facts of that 
situation. Maybe we will change the rules of engagement where 
we don't allow Iranians to capture our ships without a fight 
over in that part of the world.
    But I want to talk about the IRGC. Do you think that the 
IRGC has planned and executed terrorist attacks throughout the 
world including against Americans, Mr. Modell?
    Mr. Modell. Thank you for the questions, Congressman. I 
don't that there is any doubt whatsoever that the IRGC, 
particularly the Quds Force, has planned terrorist activities 
against the U.S. and U.S forces, U.S. persons, and its allies 
around the world. I think between 2012 and 2015, there were at 
least 30 such activities that were in some way traced back to 
the IRGC. So I don't think that there is any doubt about that 
whatsoever.
    Mr. Poe. Does the IRGC have training camps in Iran that 
train other people from other parts of the world in terrorist 
activities?
    Mr. Modell. I think the publicly available information 
would point you to Iranian sponsored and run training camps in 
southern Lebanon. Are there training camps in Iran? I think 
that is probably meant for discussion in a more private 
setting.
    Mr. Poe. Well, how about in South America? How about South 
America, can you answer that question?
    Mr. Modell. South America, beyond the rumors of Iranian 
training camps in Margarita Island and certain parts of 
Venezuela I have not heard of anything. I have heard of Iranian 
outreach in various nefarious ways to certain groups in Latin 
America, but the links between for instance the Vice President 
of Venezuela and Iran have been long discussed and long, there 
has been a lot of speculation about links therein to terrorism 
and destabilizing activity----
    Mr. Poe. How about the Iranian sponsor of Hezbollah in 
Syria and Lebanon?
    Mr. Modell. I don't think there is any doubt about that.
    Mr. Poe. That it happens. I mean they sponsor the terrorist 
group Hezbollah.
    Mr. Modell. Not only do they sponsor the terrorist group 
Hezbollah, but I can tell you when Syria began in full force 
and Iran really started to take a leading role, Hezbollah 
actually put up some resistance and said we are not sure that 
we really want to become embroiled in this, and the Iranians 
strong-armed them and said yeah, you are going to do that. So 
it is not a matter of Iran supporting or sponsoring them, it is 
about them controlling them to a large extent.
    Mr. Poe. Do you think that the IRGC based on their 
activities worldwide and their sponsorship of terrorism should 
be back on the list or on the list as a sponsor of terrorism, 
that the Treasury Department should designate them as a 
terrorist organization? Just want your opinion.
    Mr. Modell. In my opinion, I don't think so. I don't think 
so. I think that there are certain parts of the IRGC that 
should be and the Quds Force. I don't think that the original 
purpose of the designations for foreign terrorist organizations 
were meant for entire militaries, and that is essentially what 
the IRGC is. I think it is overreach and I think, actually I 
don't think it will have much of an impact.
    Mr. Poe. I am not asking for a foreign terrorist 
organization designation, I am asking if you think that the 
Treasury Department under their power should designate it as a 
terrorist organization. It is a different designation.
    Mr. Modell. Treasury designating the IRGC as a terrorist 
organization makes sense just given the depth of IRGC 
involvement in all facets of Iranian terrorism, so yes, in that 
regard it is. It would be sensible, yes.
    Mr. Poe. I am out of time, I yield back. Thank you very 
much.
    Chairman Royce. Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
for calling this hearing. Now more than ever the United States 
must show the world that we are serious about holding Iran to 
account and enforcing the JCPOA as well as examining Iran's 
destabilizing activities around the world. But it is impossible 
to talk about Iran and not talk about Russia, particularly when 
you consider Russia's blocking of sanctions against Iran at the 
U.N., and Russia's support of Iranian activities in Syria.
    But I fear that we are at a disadvantage when we have a 
President who seems unable and unwilling to stand up to 
Vladimir Putin, Iran's biggest supporter and patron. As the 
body in the House responsible for our foreign policy it is 
incumbent upon us to examine the very real consequences of 
President Trump's pivot toward Russia and what that means for 
our national security, our relationships with allies, and the 
function of our own Government.
    Mr. Chairman, it has been 8 months since we had a full 
committee hearing on Russia. I believe we are long overdue, and 
we must have witnesses from the administration appear before us 
and give a full and honest accounting of what their plans are 
for dealing with this unprecedented Russian aggression and 
meddling in the United States.
    Moreover, as the body tasked with oversight of our foreign 
diplomacy apparatus, we absolutely must require General Michael 
Flynn to appear before this committee and answer truthfully 
about what his relationship and contacts were with Russian 
officials before and during his tenure as national security 
adviser. The issue impacts the United States' relationship with 
our friends and foes around the world. If we cannot be an 
honest broker in our dealings with Russia we lose credibility 
everywhere.
    And that is why 19 of my colleagues on this committee and I 
sent you a letter asking that we have Michael Flynn testify 
before this committee as soon as possible. I ask unanimous 
consent that a copy of this letter be entered into the record.
    Chairman Royce. Without objection.
    Mr. Cicilline. This request is made in the context of the 
following facts: Unprecedented Russian interference in our 
elections directed by Vladimir Putin to help elect Donald Trump 
as concluded by 17 intelligence agencies; a sophisticated plan 
of hacking, fake news, and a sophisticated use of propaganda; 
repeated contacts between the Trump campaign and Russians 
during the course of the campaign. Three members of President 
Trump's inner circle--Carter Page, Paul Manafort, and now 
Michael Flynn--have had to leave the inner circle because of 
their ties to Russian officials. Secret conversations between 
the national security adviser and the Russian Ambassador, then 
Michael Flynn lied to the American people, lied to the Vice 
President of the United States, and denied those conversations, 
those conversations happening right on the day that sanctions 
were imposed for interfering with the American Presidential 
elections.
    At the same time, Sally Yates, the acting attorney general, 
brought that information to the attention of the White House 
counsel and she concluded that he was a compromised individual 
who could be blackmailed by the Russians. What did they do? 
Shortly thereafter Sally Yates is fired, Michael Flynn stays in 
place for 17 days with full access to classified information 
continuing all of his responsibilities as a national security 
adviser.
    This is in the context of a President who is bellicose and 
fighting with all of our allies--Mexico, Australia as two most 
recent examples--but has showered praise on the brutal dictator 
Vladimir Putin. He maligns our intelligence professionals, 
compares them to Nazi Germany, and at the same time we learn 
that Michael Flynn has appeared at a celebration of RT, the 
single most powerful Russian propaganda machine, and the 
President has refused to answer questions about his investments 
or financial dealings in Russia or to produce his tax returns.
    Then we learn his son at a real estate conference in 2008 
said, and I quote, ``Russians make up a pretty disproportionate 
cross section of a lot of our assets.'' And then he went on to 
say, ``We see a lot of money pouring in from Russia.''
    Mr. Chairman, I don't know what else we need to see to 
fulfill our responsibilities to get to the bottom of this, 
because we can't have a real conversation about foreign policy 
or the implications of our relationships with Russia, with 
Iran, with the rest of the world until we get to the bottom of 
this.
    And so while I am anxious to have a conversation about Iran 
and anxious to have a conversation about the JCPOA, I am 
imploring this committee, Republicans and Democrats, to put 
your country before party to bring these issues before this 
committee so we can get to the bottom of this. The American 
people expect nothing less, and I urge all the members of this 
committee to join those who have already asked for these 
hearings, because the American people are watching this and 
they cannot believe that there hasn't been a bipartisan effort 
in the House of Representatives to get to what has been 
unprecedented interference in our democratic institutions, that 
the sanctity of our democracy, our ability to defend our very 
way of life is at stake.
    And so I don't have a question for this panel. I thank you 
for your testimony, but I think this gets to the heart of our 
ability to continue to be a beacon to the world, a place of 
democracy, of self government, where foreign governments have 
no role in helping to pick our leaders or interfering with 
policies that we implement in America. And I thank you and I 
yield back my remaining 2 seconds.
    Chairman Royce. Mr. Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman. I want to talk about 
the issue at hand, but I, as you know, simply can't just let 
the statements of the past remain on their own without 
correcting the record.
    And as long as credibility has been brought up especially 
by the other side of the aisle, for my whole life, for 
literally my entire life, I have watched many of my friends on 
the other side of the aisle or that side of the aisle sidle up 
to and speak glowingly of horrible dictators like Fidel Castro 
and----
    Chairman Royce. Will the gentleman yield for a minute? Just 
in the interest of comity maybe let me make this point. Mr. 
Engel and I have already indicated that the first hearing we 
are going to do is on this issue after the recess when we come 
back. So for the members here what I would just urge is that we 
have a panel of experts before us and if we can stay focused on 
the issue at hand I think that will allow us, especially with 
the time and effort and expertise that these four individuals 
have put into studying this problem, allow us to come to some 
solutions which this committee can then push.
    In the meantime, we can prepare for the upcoming hearing in 
2 weeks and we are to deal with the issue, an issue which we 
have long dealt with on this committee, but I would just urge 
that from members on both sides of the aisle so that we can get 
back on topic on something that is quite a challenge. And then 
in 2 weeks we will continue with the good work of this 
committee and hopefully in a bipartisan way. And with that I 
will yield back to General Perry.
    Mr. Perry. Thank you, Mr. Chairman. I appreciate your 
indulgence and I will bring this back home as quickly as I can. 
I would just point to at least most recently discounting all of 
my life in watching what I saw. Most recently, regarding Iran 
and Russia, the Obama administration failed to follow the law 
and sanction Russia for the sale of the S300 missile system and 
various other weapons system, aircraft, armored vehicles, et 
cetera--nary a word. Not a word. Russia invades Crimea--
nothing. Nothing from that side. The full outrage and concern 
is what it is, and I would say this as an old soldier.
    Mr. Deutch. Will the gentleman yield?
    Mr. Perry. I will not yield. I just want to say this is 
complementary fashion, in complementary fashion, and it doesn't 
apply to everybody. It doesn't apply to everybody. But in 
complementary fashion, welcome to the war. With that Dr. Exum, 
thank you for your service to the country.
    I would also like to refer to the remarks of the gentleman 
from California, Mr. Rohrabacher, while we discuss the margin, 
the marginal errors of the agreement or of Iran's actions, the 
small infractions, whether it is low enriched uranium, heavy 
water stockpiling, ballistic missile activities, the purchase 
of conventional weapons, et cetera, I don't think there is any 
doubt in the room or around the world that in some fashion 10 
or 15 years from now Iran is going to be a nuclear armed with 
delivery capability nation. That is who they are going to be. 
That is what they are going to be and we are going to deal with 
that somehow.
    And I would also say in agreement with Mr. Rohrabacher, we 
are not going to go to war with Iran. That is not going to 
happen. I think the deal is horrible, I always have. It is what 
it is and we have got to find a way to move forward.
    I just want to follow up with you, Mr. Modell, with where 
Mr. Poe is headed because I was headed there already. What are 
the ramifications of listing the IRGC as a foreign terrorist 
organization with specific ties to how Treasury treats their 
transactions and the permutations of the IRGC and those 
transactions with other countries, other entities? What are the 
ramifications if that were to happen? You said you didn't think 
there would be any, it would be marginal. Can you elaborate on 
that?
    Mr. Modell. Let me elaborate on that. The part that I think 
would be not marginal at all would be as it would serve as a 
significant deterrent to foreign businesses who were looking to 
get into Iran. So the extent that we can declare them as a 
foreign terrorist organization by Treasury or by having the 
State Department continue to add the individuals to the lists 
that exist, Magnitsky List type of sanctions where we are 
pointing out corruption and we are actually saying the IRGC's 
massive commercial enterprise, buyer beware.
    So to a large extent the recovery of Iran's economy, the 
ability of foreign businesses to go in there and actually 
conduct transactions would be impacted. So perhaps I misspoke, 
but I think there would be a significant impact economically 
when you think about the extent to which the IRGC has control 
over significant sectors of the Iranian economy and to the 
extent to which such a declaration would probably cause a lot 
more heartburn among companies that are looking to get in.
    Companies that I speak to right now in a private sector 
capacity--large oil companies, Europeans, multinationals who 
are looking--the one thing that they ask is say, hey, you guys 
are based in Washington, DC. We have done a lot of due 
diligence, we think there is a way we can make a lot of money 
in Iran, however, there is still this black cloud of sanctions, 
we don't know where the U.S. is going to go. It is a 
significant deterrent even when the lawyers have signed off on 
it and even when people in leading European companies are ready 
to go back in.
    So those types of things give people real pause. So I would 
stand corrected and say it would have a significant impact.
    Mr. Perry. Thank you, Mr. Chairman. I yield.
    Chairman Royce. Thank you. I would remind all members that 
House Rule 17 and committee decorum requires us to confine our 
remarks to the issues under discussion and to avoid discussion 
of personality.
    And we now go to Dina Titus of Nevada. Thank you.
    Ms. Titus. Thank you, Mr. Chairman.
    Dr. Exum, in your testimony you talk about the four Ps 
strategy that you followed when you were at the Defense 
Department under the Obama administration--posture, plans, 
partners, and preparedness. Well, it seems to me under this 
administration our posture has become negative and hostile, our 
plans are nonexistent, our partners have all been alienated, 
and our preparedness is just a state of uncertainty.
    We have also heard President Trump when the Iranians circle 
our beautiful destroyers with their little boats and they make 
gestures at our people they shouldn't be allowed to make, they 
will be shot out of the water. We heard this confirmed by one 
of the members of this committee earlier who was calling for 
virtual combat on the Gulf coast. We also heard President Trump 
tell the leadership of Harley Davidson that nothing is off the 
table when responding to questions about Iran.
    Would you just address how this new approach, all this 
saber rattling is affecting not only our relationship with 
Iran, but with the other neighbors and potential partners in 
that part of the world?
    Mr. Exum. Thank you, Congresswoman, for allowing me to 
address this question. It is a good one. I think for me what 
worries me most about this current administration, and as I 
said in my opening statement, I think there are individuals in 
this administration, Secretary Mattis for example, who come to 
this administration with deep knowledge of the threat that is 
posed by Iran as well as the threat to our own troops and our 
other various equities within the Middle East, and so I have 
certain faith in certain individuals in this administration.
    The two things that worry me, Congresswoman, are first off 
sequencing. Strategy is often about prioritization and 
sequencing. And I see some individuals within this 
administration really eager to pick a fight with Iran. And I 
think we need to be very careful about how and when we do that 
if we elect to do that.
    Right now we still have a lot of hard fighting in Iraq, for 
example. We have cleared, with our Iraqi partners, to be clear, 
have cleared eastern part of Mosul. To clear western Mosul is 
going to take several, many more months. The Middle Euphrates 
River Valley still has a significant presence of the Islamic 
State, and we need to remain focused on that at hand. And I 
sense within this administration that there are some voices who 
are so eager to confront Iran that they may not have thought 
through how exactly they sequence it or what prioritization 
they are putting into place.
    The second thing, and this is really I think the big 
concern is just the uncertainty within this administration. I 
don't think that I will surprise anybody here on either side of 
the aisle by saying that the upheavals we have seen within this 
administration over the past few weeks have been unprecedented 
both in terms of personnel, to include the dismissal of the 
national security adviser, to also include some of the ways in 
which we have alienated some of our key partners such as--I 
mean I thought it would take some great effort to offend 
Australia, but we managed to accomplish it in the first 2 weeks 
of this administration.
    And they are a key partner. They followed us in Vietnam, 
they are active with us off the coast of the Arabian Peninsula 
in terms of maritime patrols. We depend on these partners to 
not only defeat Daesh but also to push back against the threat, 
the very real threat that my colleagues on this table as well 
the members of this committee have highlighted in terms of 
Iran's asymmetric activities.
    You know, when we interdict weapons shipments off of the 
coast of Yemen, for example, it is often not U.S. forces who do 
this. It is often our partner forces that do this. We need 
those partners, and right now there is a great deal of 
uncertainty, I think, among many of them in terms of the 
strategic direction of this administration in terms of who can 
speak for this administration, and it is worrying to me both as 
a former official, but also quite frankly just as an American 
citizen testifying before this committee today, ma'am.
    Ms. Titus. Thank you.
    Yes, Mr. Albright.
    Mr. Albright. I would like to add I am not part of the 
administration in any way, but I don't, and there may be some 
voices trying to pick a fight with Iran, but I don't think they 
are trying to pick a fight with Iran. I think they are, even 
with this idea of putting Iran on notice, I mean they, Flynn 
made clear that they want to have a policy review. They don't 
have people in place and they need to do a lot of recruitment, 
but I think, overall I think they are moving ahead rather 
deliberately. But Iran does things and they have to respond.
    Ms. Titus. Do you think we can have it both ways? We can be 
cozy with Russia and tough on Iran at the same time?
    Mr. Albright. On the Russian issue, Iran is----
    Ms. Titus. Thank you, Mr. Chairman. I yield back.
    Mr. Albright. Okay.
    Chairman Royce. Thank you. We go now to Mr. Thomas Garrett 
of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman.
    Chairman Royce. Mr. Garrett, let's get that microphone 
closer and make sure you have the red button on.
    Mr. Garrett. Do I get my 10 seconds back? Just kidding. 
Anybody studying the region with any sort of objectivity 
understands that the IRGC is the fulcrum of power in Iran. The 
2009 uprising failed, I believe, in large part due to what Mr. 
Sherman, my colleague from California, referenced as a 
willingness of individuals to level firearms at their fellow 
citizens. And it wasn't obviously just the IRGC, but subsidiary 
elements such as the Quds Force thereof. And so if we are 
attempting to ensure better outcomes in Iran, I think we should 
focus our efforts on the IRGC. I am not sure if it was Mr. 
Rohrabacher or Mr. Perry who initially commented on, and 
actually I think it was Mr. Poe who originally commented on 
potentially extending the Treasury Department's OFAC controls 
to implement actions wherein they would treat the IRGC as a 
sponsor of terror, but I can't think of a good reason not to do 
this except that as I understand it the JCPOA instructed a lot 
of the restrictions, a lot of the sanctions that have been 
placed on the IRGC, to be lifted, which seems to me to be 
counter to American policy in any number of arenas.
    Number one, the previous administration's failure to act in 
2015 after the Russians waited 5 years to complete the sale of 
S300 missiles to Iran created a circumstance wherein if you 
understand the capabilities of the S300 platform, any 
generation 4 aircraft carrier based aircraft really can't take 
off in the Persian Gulf safely. That is just the reality. And 
so we have no Gen-5 assets, F-35 comments withheld, in that 
capable range.
    And truly I read where we have ``a robust suite of plans 
that are real, resourced, and our forces are ready to execute 
them,'' and I wonder if we do, particularly in a world where if 
we had executed a strike with simply F-22s and B-2s, we have 
about what, 10 operational platforms of the latter.
    So if we wanted to act we couldn't, we know the fulcrum of 
power in Iran is the IRGC, and we are hamstrung by a JCPOA that 
doesn't let us attack the fulcrum of power metaphorically, not 
literally, the IRGC. And it is hard for me to fathom having 
worn a uniform and knowing Ranger Exum--I use that because it 
is more impressive than Doctor--and Mr. Perry, fought alongside 
and served alongside some of the 500 American service members 
who we estimate were killed by IEDs manufactured by the IRGC 
and their subsidiaries, which goes beyond the 283 Americans who 
died in Beirut. And I could keep going, Lebanon, the Khobar 
Towers, a plot to assassinate the Saudi Ambassador here on this 
soil.
    So if we want a better outcome in Iran I would submit that 
we need to function in a way that we could penalize the IRGC 
which will then destabilize the regime because the guns are 
what keep the mullahs in power. Having said that I would ask, 
and I don't have a ton of time left, if anybody can tell me if 
when we do things like send 400 million unmarked euros at a 
time when it would correlate to the release of foreign held 
dual citizens--whether it was ransom or not, the optics are 
bad, right--if that doesn't encourage the same sort of bad 
behavior? And I would point to similar activities undertaken 
not just in the Sudan and North Korea subsequent and precedent 
to that but also in Iran. Here are your foreign nationals back, 
we have our 400 million, we now have some more people.
    So I guess, you know, we have what, U.S. citizens and legal 
permanent residents to the tune of ten, eight plus two, I 
think, held in Iran now, and for us to negotiate in good faith 
I would argue is a betrayal of these folks, of my oath to 
defend the Constitution and the citizens of the nation that it 
rules over and how can we do that?
    I mean why not just cut off all activities in any 
nonmilitary way that we can with the fulcrum of power in Iran 
and refuse to do business with those who do business with these 
folks and let them choose between economic activities with the 
United States or with Iran? I think I know which way they would 
make those choices.
    So I guess this is a really convoluted compound question, 
but doesn't the JCPOA really hamstring us from attacking 
metaphorically, not literally, the axis of power, the fulcrum 
of power in Iran, the IRGC, by virtue of the elements therein, 
and therefore doesn't it actually serve to perpetuate the 
existence of the regime?
    Mr. Modell. Sorry, you just got picked at random.
    Mr. Modell. No, Congressman Garrett, I couldn't agree more. 
I think that if you are going to actually do the things that 
Congressman Rohrabacher was talking about and some of things 
that I mentioned in my testimony--that is weakening the IRGC--
you have to focus on that.
    And I think the existence of this regime depends on the 
existence of the IRGC. They are at the center of everything. 
For them to control 25 to 50 percent of the economy and not to 
be held accountable or for businesses not to be held to a 
higher standard before doing business over there, and I think 
quite frankly the hurdles are way too low, you are actually 
contributing to the perpetuation of a regime that is 
fundamentally against us in every way.
    Mr. Garrett. Right. And Mr. Chairman, I know I am over a 
bit. Did we not with the JCPOA seek to essentially see 
hopefully regime change through a more moderate regime before 
the Iranians hit that nuclear threshold? That is really the 
goal, right? Give us time and if there is a change in the 
power, but if we don't hit that fulcrum of power there will be 
no regime change. Mr. Albright?
    Mr. Albright. Yes. Well, that was some of the talking 
points. I am not sure the negotiators necessarily believe that, 
but in a sense they were asking to kick the can down the road 
and they did.
    And on your question on the IRGC I think the impact on the 
JCPOA is do we lose the Europeans or not. I mean that is 
really, and so I think the issue for the administration is they 
are going to have to get out there and manage the relationship 
with the Europeans so if they do decide to move forward on 
listing the IRGC under the executive order as a terrorist 
organization that they don't lose the Europeans, because 
certainly it is their business that will be affected.
    But I think it can be done, but it certainly, the 
administration has to get out there and talk to them. The 
Europeans have made it clear that this upsets them, but I think 
that it can be managed.
    Ms. Bauer. Excuse me, if you would indulge me for just a 
moment. I think that you are right that sanctions diplomacy is 
very important.
    Chairman Royce. I am afraid time is expired, but we are 
going to let you put that in writing.
    Ms. Bauer. Okay.
    Chairman Royce. Let's see, Brad Schneider of Illinois.
    Mr. Schneider. Thank you, Mr. Chairman. And let me just 
start by thanking the witnesses for your testimony here today 
and your service to our country and your work across time on 
this particularly important issue.
    Ms. Bauer, I want to emphasize what you talked about in 
your testimony. I think the three points you made are worth 
repeating. One, the necessity of taking back the narrative, the 
need to emphasize the sanctions that are still in place and to 
enforce those sanctions rigorously, vigorously to the greatest 
extent possible.
    You said in your testimony that sanctions are most 
effective when they are adopted by international community, the 
international coalition. My question, and I leave this question 
with the whole panel, what are the challenges to maintaining, 
if not strengthening, international support for sanctions and 
the opportunities to bring increasing bite to the sanctions in 
place and potential sanctions against Iran's activities not 
just around ballistic missiles but human rights and their 
activity in conventional weapons throughout the region?
    Ms. Bauer. Thank you. I think that one of the challenges to 
increasing the bite of sanctions and to rebuilding this 
multilateral coalition that we had before is that it does 
largely come down to the Europeans and the view in Europe that 
an important part of their dialogue with Iran is the commercial 
dialogue. But they are divided on this point and they in fact 
do maintain sanctions on the IRGC in Europe under their human 
rights authorities and they maintain sanctions on Hezbollah's 
military wing. So they are divided on this issue.
    I think what is important going forward from the U.S. 
perspective in more vigorously enforcing the sanctions we have 
is that we continue to do those based on conduct, because that 
will be, continuing to emphasize the ways in which Iran 
violates international norms will be something that will be 
helpful in rebuilding a multilateral coalition.
    Mr. Schneider. Mr. Albright, you said with the last 
question that there is a question, do we lose the Europeans? 
What steps would increase that likelihood, what steps should we 
be taking to make sure that we don't lose the Europeans in 
enforcing sanctions?
    Mr. Albright. Yes, I think it, and this would reflect just 
visits in Europe. I mean this when they will say, and maybe it 
is just the optics of it, the additional signal, but they will 
say that this would end business between European companies and 
Iran. I understand what Ms. Bauer said and I would actually 
defer to her, but what I clearly heard was that there is 
something going on here that this other designation would cause 
companies to pull back.
    And maybe it is not true. Maybe that will be part of the 
management is that they should be more careful in the first 
place based on having these sanctions in the IRGC. But I do 
think that the administration has to get out there and start 
discussing these things with them and not just hope for the 
best.
    Mr. Schneider. I will continue down the panel. Mr. Modell, 
you are nodding.
    Mr. Modell. No, I would just second that. I would say that 
we talk to companies all the time that, you know, have signed 
MOUs and they are on the verge of actually making the leap into 
Iran and there still is a real fundamental lack of clarity on 
their part as to what they can and cannot do. Treasury does a 
great job of laying out some of the dos and don'ts, and there 
is U.S. Government Web sites where you can go and see what you 
can and can't do in the sanctions.
    But really quite frankly it is cumbersome and it is a lot 
to get through. There is no nice easy dos and don'ts list for 
companies. I think there has to be a media offensive that 
reminds companies of the dangers of doing it. And quite 
frankly, a lot of companies have gone in there and tripped and 
fallen and have reputational risk.
    There should be some sort of a list, consumer report, some 
U.S. Government sponsored Web site that actually details bad 
experiences that companies have had in going in there so that 
other companies can reach out and say wait a minute, maybe we 
ought to think about that sounding board, consumer reports if 
you will. But a lot of companies have experiences that we 
should exhibiting.
    Mr. Schneider. Dr. Exum, I don't want to leave you out.
    Mr. Exum. Well, sanctions is not my specialty and I plead 
ignorance. I defer to the expertise of the other panelists.
    Mr. Schneider. Well, thank you. I have just a little bit of 
time left, but I think, and I had raised these concerns when 
the JCPOA was announced the need to make sure that Iran cannot 
get any closer to a nuclear weapon during the time frame of the 
JCPOA or any time thereafter and indeed make it clear that U.S. 
policy is Iran will never have a nuclear weapon. And with that 
I yield back.
    Chairman Royce. I thank the gentleman, and we go to Mr. Ted 
Lieu of California.
    Mr. Lieu. Thank you. Let me first thank Chairman Royce and 
Ranking Member Engel for agreeing to have the next hearing be 
on Russia. I think we all appreciate that. And thank you to the 
panelists for being here, for your expertise and thank you, Dr. 
Exum, for your military service.
    As you know, Iran is involved in Syria, as is Russia, and 
there are two news agencies, CNN and Reuters, reporting that 
the Pentagon is considering sending U.S. conventional ground 
forces to Syria. That would significantly alter our military 
footprint and operations in Syria. I think it is a very, very 
bad idea.
    The Trump administration has not laid out a plan for what 
they would do there. They have not set out objectives they 
would want them to achieve. The Trump administration has not 
explained who they would support in Syria nor how long they 
would be there. I would like to ask each of you, do any of you 
think it would be a good idea to send our women and men of our 
military in harm's way into Syria? And let me start with Dr. 
Exum.
    Mr. Exum. So, Congressman, you are asking all the right 
questions. If I could be so honest, I think that we would like 
to know a lot more about what these soldiers would be doing. I 
think we would want to know who they would be. I don't think, I 
mean you followed this conflict closely. You know that our 
overall strategy against the Islamic State has been by, with, 
and through local partners. So we have had forces on the ground 
in Iraq and Syria to the degree that they would enable local 
partners.
    The strategic dilemma that this administration faces 
specifically as it wants to go on Raqqa is whether or not you 
can push on Raqqa without arming and training the YPG. Doing so 
would put at risk our relationship with a NATO ally in Turkey, 
and I think that is what this administration is wrestling with. 
We made the decision when we constructed the strategy to 
counter the Islamic State which had buy-in from not only the 
civilians in the Pentagon but also all the uniforms as well 
that working by, with, and through local partners would make 
more sense, first off, because many of us are Iraq veterans and 
we know that the Iraq war cost roughly almost 5,000 U.S. lives.
    I think during my tenure at the Department of Defense the 
way in which we waged the conflict cost five, the loss of five 
U.S. servicemen. It is also less expensive in terms of 
monetarily. But more important than that strategically the 
logic is it is more sustainable on the ground. Yes, it is 
messier. Yes, it takes more time. But if local groups have a 
buy-in to the fight they have a buy-in to the victory and that 
is something that didn't happen after we defeated the 
insurgency in Iraq in 2007-2008.
    To get back to your question, deviating from by, with, and 
through could potentially, you know, I would caution the 
administration from deploying the 82nd Airborne on the ground 
in northeastern Syria. I believe that would be a mistake. I 
believe it would be costly not just in terms of money but in 
terms of lives. If by contrast you are talking about limited 
conventional forces to help you breach the outer defenses of 
Raqqa in a way that might mean that you don't have to arm the 
YPG to the extent that would really inflame the relationship 
with Turkey, if that is what they are talking about that is 
something different.
    So Congressman, I think you are asking all the right 
questions. If I am in the position of the Pentagon right now, I 
am really weighing those options and trying to think about, you 
know, which forces you are really talking about. So it all 
depends on kind of the forces that they are talking about.
    Mr. Lieu. Thank you. So the other panelists, you don't have 
to answer unless you think it is a good idea to send a lot of 
ground troops into Syria. Do any of you think it is a good 
idea?
    Mr. Exum. No.
    Mr. Lieu. All right. So I have limited time. I wanted to 
talk about Yemen, Doctor, as you have mentioned Yemen. As you 
know, Iran is involved there.
    Mr. Exum. That is right.
    Mr. Lieu. I don't have any problem with freedom of 
navigation. What I have a problem with is the United States, we 
are refueling a Saudi-led coalition of aircraft that drop bombs 
in Yemen and we don't have any idea where they drop them. That 
has been told to us. I have gone to briefings, and we don't 
know.
    And it turns out that there has been multiple airstrikes on 
civilians. Amnesty International and Human Rights Watch have 
documented over 70 unlawful airstrikes on wedding parties, on a 
Doctors Without Borders hospital, on schools; children, women, 
civilians are being slaughtered. These look like war crimes, 
and U.S. military should not be aiding and abetting war crimes. 
And what I want to know, Dr. Exum, is sort of your view on that 
issue.
    Mr. Exum. So Congressman, you put your finger on why I 
think the last administration was reluctant to get deeper 
involved in the conflict in Yemen. I think in some ways the 
last administration, to put it crudely, tried to be half 
pregnant. There is a strategic argument to be made for if you 
are going to get involved in the conflict then help the Saudis 
and the Emirates and their coalition win and help them win in a 
way that is compliant with the laws of armed conflict and that 
allows you to have some influence over the way they are 
involved, or you completely step away and you say that we can't 
be involved with this conflict.
    I think we tried to find a middle ground and I think that 
is where that led to some of the confusion and some of the 
problems. I will say however that we do have adversaries in 
Yemen, al-Qaeda in the Arabian Peninsula, for example, the 
Islamic State in Yemen where it might make sense to partner 
with some of our forces on the ground, or some of our partners, 
the Emirates, for example, who are kind of a cut above the 
other Gulf forces in terms of their competence, and there it 
might make sense to partner with them.
    Against threats to freedom of navigation that is something 
like I said, I think it is a U.S. interest. I also think it is 
a huge interest for the Europeans, for India, for South Korea, 
for anybody pushing shipping through the Bab al-Mandeb, and so 
there should be a concerted diplomatic effort to pressure the 
Iranians with respect to the presence of some anti-ship cruise 
missiles in Yemen, and if necessary there should also be a 
kinetic response, because that is a point where that has always 
been a key U.S. interest for 50 years in terms of freedom of 
navigation and commerce around the Arabian Peninsula, and I 
think you would want to take a hard stand there.
    But I take your points regarding the broader conflict and I 
think it is one, it was a key topic of debate within the Obama 
administration, sir.
    Chairman Royce. Well, thank you. Thank you. We want to 
thank again our panel. We appreciate the time of our witnesses 
today and especially, you know, this focus of what we do in the 
light of Iran's continued ballistic missile program and its 
continued transfer of missiles to Hezbollah and the other 
activities in the region that are threatening to the countries 
in the region. And as Ms. Bauer observed we should start, I 
think, with the premise that on these violations Iran gets no 
special pass.
    And we look forward to continuing to work with each of you 
in terms of the challenges ahead, so thank you, and with that 
we stand adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

 
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
